<html>
<title> - THE FINDINGS OF THE IRAQI SECURITY FORCES INDEPENDENT ASSESSMENT COMMISSION</title>
<body><pre>[Senate Hearing 110-231]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-231
 
   THE FINDINGS OF THE IRAQI SECURITY FORCES INDEPENDENT ASSESSMENT 
                               COMMISSION

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 6, 2007

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
38-601 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           BOB CORKER, Tennessee

                   Richard D. DeBobes, Staff Director

             Michael V. Kostiw, Replublican Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

   The Findings of the Iraqi Security Forces Independent Assessment 
                               Commission

                           september 6, 2007

                                                                   Page

Jones, Gen. James L., USMC (Ret.) Chairman, Independent 
  Commission on the Security Forces of Iraq; Accompanied by 
  Commissioners GEN John N. Abrams, USA (Ret.); Lt. Gen. Martin 
  R. Berndt, USMC (Ret.); Gen. Charles G. Boyd, USAF (Ret.); Sgt. 
  Maj. Dwight J. Brown, USA (Ret.); Hon. Terrance Gainer; Hon. 
  John J. Hamre; Col. Michael Heidingsfield, USAF (Ret.); ADM 
  Gregory G. Johnson, USN (Ret.); GEN George A. Joulwan, USA 
  (Ret.); LTG James C. King, USA (Ret.); Asst. Chief Constable 
  Duncan McCausland; Lt. Gen. Gary S. McKissock, USMC (Ret.); 
  Sgt. Maj. Alford L. McMichael, USMC (Ret.); Maj. Gen. Arnold L. 
  Punaro, USMC (Ret.); and Chief Charles H. Ramsey...............     5
Report of the Independent Commission on the Security Forces of 
  Iraq...........................................................    66

                                 (iii)


   THE FINDINGS OF THE IRAQI SECURITY FORCES INDEPENDENT ASSESSMENT 
                               COMMISSION

                              ----------                              


                      THURSDAY, SEPTEMBER 6, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Byrd, 
Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, Bayh, 
Clinton, Webb, McCaskill, McCain, Warner, Inhofe, Sessions, 
Collins, Chambliss, Graham, Dole, Cornyn, Thune, Martinez, and 
Corker.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Evelyn N. Farkas, professional staff 
member; Michael J. McCord, professional staff member; William 
G.P. Monahan, counsel; and William K. Sutey, professional staff 
member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Derek J. Maurer, minority counsel; Christopher J. 
Paul, professional staff member; Lynn F. Rusten, professional 
staff member; and Dana W. White, professional staff member.
    Staff assistants present: Fletcher L. Cork, Jessica L. 
Kingston, and Benjamin L. Rubin.
    Committee members' assistants present: Sharon L. Waxman and 
Jay Maroney, assistants to Senator Kennedy; David E. Bonine and 
James Tuite, assistants to Senator Byrd; Colleen J. Shogan, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Richard Kessler, assistant to Senator Akaka; 
Christopher Caple, assistant to Senator Bill Nelson; Andrew R. 
Vanlandingham, assistant to Senator Ben Nelson; Jon Davey, 
assistant to Senator Bayh; Andrew Shapiro, assistant to Senator 
Clinton; Gordon I. Peterson, assistant to Senator Webb; Stephen 
C. Hedger, assistant to Senator McCaskill; Richard H. Fontaine, 
Jr., assistant to Senator McCain; Sandra Luff, assistant to 
Senator Warner; Anthony J. Lazarski and Nathan Reese, 
assistants to Senator Inhofe; Todd Stiefler, assistant to 
Senator Sessions; Mark J. Winter, assistant to Senator Collins; 
Clyde A. Taylor IV, assistant to Senator Chambliss; and David 
Hanke and Russell J. Thomasson, assistants to Senator Cornyn.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today we welcome 
General Jim Jones and the other members of the Commission on 
the Security Forces of Iraq. We thank them for their extremely 
important work that they have done for our country.
    Service to country is nothing new to these commissioners. 
They have all served with great distinction in military or 
police capacities in their earlier careers. We very much 
appreciate the willingness of the members of this Commission to 
risk life and limb during three separate visits of relatively 
long duration in a dangerous Iraq to acquire the insights and 
to make the important findings and recommendations contained in 
this report.
    This Commission was established by congressional 
legislation which was authored by Senator Warner, who also 
consulted frequently with the Commission to ensure that no 
roadblocks were hindering the completion of their important 
work in time to inform the upcoming critical debates on Iraq 
policy.
    The Commission was tasked to assess the readiness of the 
Iraqi security forces (ISF) to maintain the territorial 
integrity of Iraq, to deny safe haven to international 
terrorists, to bring greater security to Iraq's provinces in 
the next 12 to 18 months, to end sectarian violence, and to 
achieve national reconciliation. On that last point, I would 
note that the Commission found that the ``Iraqi army and police 
services have the potential to help reduce sectarian violence, 
but, ultimately, the ISFs will reflect the society from which 
they are drawn. Political reconciliation, the Commission found, 
is the key to ending sectarian violence in Iraq.''
    The Commission also assessed ``the single most important 
event that could immediately and favorably affect Iraq's 
direction and security is political reconciliation focused on 
ending sectarian violence and hatred. Sustained progress within 
the ISFs depends on such a political agreement.''
    The Commission was further tasked to evaluate the capacity 
of the ISFs in key functional areas and to what extent 
continued U.S. support is needed by the ISFs. The Commission's 
major findings are not surprising to those of us who also visit 
Iraq frequently. They're consistent with what we found on our 
last trip there, just last month. The Iraqi army is making 
progress and is increasingly capable of planning, executing, 
and sustaining counterinsurgency operations, either 
independently or with coalition support. What is needed to 
achieve more independent operations, the Commission finds, 
include the ``key enablers of combat support, particularly 
aviation, intelligence, communications, and combat service 
support, particularly logistics and maintenance functions. For 
those, the Iraqi army will continue to depend on coalition 
support.''
    The Ministry of the Interior and the police, on the other 
hand, are, in the Commission's words: ``dysfunctional, and 
require a major overhaul.'' They are the creation and tools of 
sectarian Iraqi politicians. The question is, of course, how to 
convince the Iraqi government to take the necessary steps to 
carry out the overhaul.
    The Commission believes, and has found, that ``The Iraqi 
army is capable of taking over an increasing amount of day-to-
day combat responsibilities from coalition forces, but that the 
ISF will be unable to fulfill their essential security 
responsibilities independently over the next 12 to 18 months.'' 
The key word is ``independently.'' However, the Commission also 
believes that the coalition forces could begin to be adjusted, 
realigned, and retasked as the Iraqi army is able to take on 
more responsibility for daily combat operations.
    Now, according to the statistics that we have from the 
administration's quarterly report to Congress, well over half 
of the Iraqi army and police battalions can operate at least in 
the lead with coalition support. It's my observation that far 
fewer than that number are actually now in the lead. That 
raises the question, which I hope the Commission will address, 
as to why more Iraqi units should not be given the lead 
responsibility that they are capable of now, and why the 
adjustment, realignment, and retasking of coalition forces, 
which the Commission calls for, should not begin promptly.
    One of the most significant Commission statements is the 
following, that ``perceptions and reality are frequently at 
odds with each other when trying to understand Iraq's problems 
and progress.'' Nowhere is this more apparent than in the 
impressions drawn from seeing our massive logistics footprint, 
our many installations, and the number of personnel, military 
and civilian, especially in and around the Baghdad area. ``The 
unintended message,'' the Commission writes, ``that's conveyed 
is one of permanence, an occupying force, as it were. What is 
needed is the opposite impression, one that is lighter, less 
massive, and more expeditionary, significant reductions, 
consolidations, and realignments would appear to be possible 
and prudent.''
    So, the key issue that we're all going to be facing is what 
reductions in U.S. forces will be the result of the adjustment, 
realignment, and retasking of coalition forces which the 
Commission calls for.
    During our recent visit, one U.S. soldier, who is on his 
third deployment to Iraq, told us that the Iraqis will let U.S. 
soldiers do the job that they're supposed to be doing forever, 
and that we need to let them do it on their own.
    It is, indeed, long overdue that we cut the cords of 
dependence, push the Iraqis to take more responsibility and 
ownership by giving them the lead in counterinsurgency 
operations. I believe that is the thrust of the Commission's 
recommendations.
    Again, I thank the commissioners for their service to our 
Nation, for appearing at this hearing today.
    Senator Warner will have an opening statement. I, again, 
want to thank him for the leadership which he has taken in 
putting the language in our law which created this Commission.
    At the end of Senator Warner's statement, we'll turn to 
General Jones, and then we will have a 6-minute round, because 
votes are going to begin at 11:05. We expect up to five votes, 
and we're going to have to keep our hearing going during those 
votes, as best we can. I'll explain how I think we can best do 
that, after General Jones's statement.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I thank you and 
Senator McCain for scheduling this prompt hearing on this very 
important contribution to the dialogue and the gathering of a 
factual base for the benefit of the President and for the 
benefit of Congress, and, most importantly, for the benefit of 
the American people. Senator McCain will be here momentarily to 
make an opening statement.
    But I want to say, right off, my gratitude to Senator Byrd 
for joining me in getting this particular piece of legislation, 
together with the other framework legislation requiring the 
report in July by the President, the report this month by the 
President, and to have the appearances of General Petraeus and 
Ambassador Crocker. So, I thank you, Senator Byrd.
    The reason that we came up with this legislation is that 
the foundation of all U.S. policies with regard to Iraq is 
predicated on the ability of this sovereign nation to muster 
the forces to train and inspire those forces to take over the 
security of this fledgling sovereign nation. I felt that, 
through the years, this committee, and other committees of 
Congress, had interrogated the Department of Defense (DOD) and 
other administration witnesses, time and time again, with 
regard to the status of the professional ability and the 
projections of the security force of Iraq. I'm not here to 
criticize those representations, but I felt it was important to 
have a totally independent analysis performed by individuals 
whose experience, collectively and individually, could bring to 
bear this report.
    General Jones, I commend you--John Hamre, former Deputy 
Secretary of Defense, General Joulwan, former North Atlantic 
Treaty Organization (NATO) Commander, and Chief Ramsey, whom 
I've known through the years--for doing this work and leading 
the other gentlemen, who are behind you here today, in this 
very important contribution.
    On January 10, the President initiated, with a clear 
speech, the surge concept. When Senator Levin and I were in 
Iraq 2 weeks ago, we saw clear evidence that that the surge had 
achieved its goals in some phases, were measurable goals. But, 
at the same time, the President laid down in the speech, with 
clarity, that it was incumbent upon the Iraqi government to do 
the reconciliation, and that, the record shows today, has not 
come about.
    You have drawn attention to the fact that military forces 
have done their role, but, if reconciliation were to take 
place, it would bring about a cessation of the hostilities, the 
mixture of hostilities--perhaps not al Qaeda, but the mixture 
of hostilities between, particularly, the Sunni and the Shia, 
that would be equivalent to several brigades of coalition 
forces performing their military duties. It's that important, 
reconciliation.
    So, I thank you very much for your work. It will be studied 
carefully by Congress, and, most importantly, the American 
people, and I hope it will contribute to the President's 
analysis of where we go in the months to come.
    I'd like to yield a minute or 2 of my time to Senator Byrd, 
if that's alright, Mr. Chairman.
    Chairman Levin. If there's no objection, we would be happy 
to do that. I want to add my thanks to Senator Byrd. I failed 
to mention that the language, which created this Commission, 
was not just Senator Warner's language, but was the language 
that Senator Warner and Senator Byrd, together, worked on. We 
add our thanks to Senator Byrd.
    Senator Byrd, could you give a few moments of your 
thoughts?
    Senator Byrd. Thank you, Senator Levin.
    I thank my good friend and colleague, that venerable John 
Warner, a great Virginian, for his leadership on this issue. It 
has been my honor and my privilege to work together with this 
man--he is a great man--many, many times over the years, always 
with the goal of doing what is best for the country, first and 
foremost. It was in that spirit that my friend approached me 
about establishing an independent commission to assess Iraq's 
security forces. I was proud to join him as a cosponsor of the 
amendment to do so.
    Thank you.
    Chairman Levin. Thank you so much.
    Senator Inhofe. Mr. Chairman? Could I just make one 
comment? Not a statement, but--I will not be able to stay here, 
because I am the ranking member of the Environment and Public 
Works Committee, and we have a very critical meeting, but I 
just want to echo the remarks of Senator Warner, and, 
particularly, General Jones, how much I enjoyed being with you 
on your last mission there before your retirement. I have to 
say this, on my 15th trip, last week, to the area of 
responsibility, I just get so excited about good things that 
are happening. The surge is having very positive results, and 
thank you for all your service.
    Thank you, Mr. Chairman.
    Chairman Levin. General Jones?

    STATEMENT OF GEN. JAMES L. JONES, USMC (RET.) CHAIRMAN, 
    INDEPENDENT COMMISSION ON THE SECURITY FORCES OF IRAQ; 
 ACCOMPANIED BY COMMISSIONERS GEN JOHN N. ABRAMS, USA (RET.); 
 LT. GEN. MARTIN R. BERNDT, USMC (RET.); GEN. CHARLES G. BOYD, 
   USAF (RET.); SGT. MAJ. DWIGHT J. BROWN, USA (RET.); HON. 
       TERRANCE GAINER; HON. JOHN J. HAMRE; COL. MICHAEL 
HEIDINGSFIELD, USAF (RET.); ADM GREGORY G. JOHNSON, USN (RET.); 
   GEN GEORGE A. JOULWAN, USA (RET.); LTG JAMES C. KING, USA 
(RET.); ASST. CHIEF CONSTABLE DUNCAN McCAUSLAND; LT. GEN. GARY 
S. McKISSOCK, USMC (RET.); SGT. MAJ. ALFORD L. McMICHAEL, USMC 
  (RET.); MAJ. GEN. ARNOLD L. PUNARO, USMC (RET.); AND CHIEF 
                       CHARLES H. RAMSEY

    General Jones. Mr. Chairman, Senator Warner, members of the 
committee, it's a great honor to be here today, and we all 
thank you for the opportunity to address you this morning about 
the work of our Commission over the past few months, and to 
have a discussion on our assessment.
    On behalf of the Commission, I would also like to thank 
Senator Warner and Senator Byrd for their vision and their work 
to bring about the legislation that enabled this Commission to 
come together. It has been a wonderful experience to work with 
a great group of professionals, and we're honored to be here 
today to share our impressions with you.
    Before I begin this morning, I'd like to take a minute to 
introduce my fellow commissioners to you. To carry out our 
mandate from Congress, we assembled a very highly-qualified 
team of 20 prominent senior retired military officers, chiefs 
of police, and a former Deputy Secretary of Defense, and, most 
importantly, two sergeants major who formed the balance of our 
team. This independent team, supported by the Center for 
Strategic and International Studies, brought more than 500 
cumulative years of military and defense experience, and 150 
years of law enforcement experience in the professional 
disciplines that it was chartered to examine.
    The Commission consists of ten syndicates which examined 
each element of the ISF and the principal crosscutting support 
issues. So, it's my pleasure to introduce our Commission to 
you.
    First, let me introduce the members of our Army and Ground 
Forces Syndicate: General George Joulwan, United States Army 
(Retired), syndicate chair and, joining me at the witness 
table; General John Abrams, United States Army (Retired); 
General Charles Wilhelm, United States Marine Corps (Retired), 
who is not able to be here today, unfortunately; Lieutenant 
General John Van Alstyne, United States Army (Retired), also 
unable to be here today; former Sergeant Major of the Marine 
Corps, Alfred McMichael, United States Marine Corps (Retired); 
and Command Sergeant Major Dwight Brown, United States Army 
(Retired); Brigadier General Richard Potter, United States Army 
(Retired), who examined the Iraqi special forces, and is not 
able to be here today. Our Commission also benefited from the 
experience of Admiral Gregory Johnson, United States Navy 
(Retired), who principally addressed the issues surrounding the 
Iraqi navy; General Chuck Boyd, United States Air Force 
(Retired), who focused on the Iraqi air force and major 
strategic issues.
    The Commission benefited from over 150 years of law 
enforcement experience, headed by Chief Charles Ramsey, who 
joins me at the witness table. Chief Ramsey assembled a 
distinguished group of police chiefs: The Honorable Terry 
Gainer, who you also know as your Senate Sergeant-at-Arms; 
Chief John Timoney, chief of police of the Miami Police 
Department, who could not be here today; Chief Michael 
Heidensfield, a former contingent commander for the Police 
Advisory Mission in Iraq; Assistant Chief Constable Duncan 
McCausland, who joined our Commission from Belfast, Northern 
Ireland, to complement this extraordinary team of distinguished 
law enforcement officials. We also have Lieutenant General 
Martin Berndt, United States Marine Corps (Retired), who 
focused on the Iraqi border security and the Ministry of the 
Interior.
    We also had a number of commissioners who examined 
crosscutting issues relative to the ISFs: The Honorable Dr. 
John Hamre, former U.S. Deputy Secretary of Defense, who joins 
us at the witness table, focused on resource allocation and 
budget issues; Lieutenant General James King, United States 
Army (Retired), who focused on intelligence; Major General 
Arnold Punaro, United States Marine Corps Reserve (Retired), 
who focused on personnel; and Lieutenant General Gary S. 
McKissock, United States Marine Corps (Retired), who focused on 
logistics.
    I'm also grateful and pleased to introduce staff director 
Christine Warmuth, from the Center for Strategic and 
International Studies. We also had the benefit of a group of 
talented strategic advisors: James Locher, P.T. Henry, John 
Raidt, Sarah Farnsworth, and Colonel Art White, United States 
Marine Corps Reserve.
    Ladies and gentlemen of the committee, we were asked to 
conduct an independent assessment of the ISFs and to report 
back to the appropriate committees no later than 120 days from 
the date of enactment. As laid out in our enacting legislation, 
our report addresses the readiness of the ISFs in four 
principal areas: their ability to assume responsibility for 
maintaining the territorial integrity of Iraq, their ability to 
deny international terrorists safe haven, their ability to 
bring greater security to Iraq's 18 provinces within the next 
12 to 18 months, and their ability to bring an end to sectarian 
violence to achieve national reconciliation.
    In addition, the Commission was tasked with an assessment 
of ISF capabilities in the areas of training, equipping, 
command-and-control, intelligence, and logistics.
    Each of the 10 syndicates was led by a senior commissioner 
and focused on either a discrete component of the ISFs or a 
crosscutting functional area. Syndicate inputs were subject to 
review and integration by all Commission members.
    During the course of its study, the Commission traveled 
widely throughout Iraq, on three separate occasions, spending a 
total of 3 weeks on the ground to gather facts and impressions 
firsthand.
    I will now refer to some charts, and I will also guide you 
through where you can find those charts in your individual 
reports, just mentioning the pages.
    On pages 23 and 24 of your report, figures 1 and 2 will 
demonstrate that we made more than 70 site visits in Iraq--as 
you can see from the charts--including visits to Iraqi military 
and ministerial headquarters in the various command centers, 
training facilities, and operating bases. We also visited Iraqi 
police stations, joint security stations, and law enforcement 
academies, and commissioners traveled to border, port, and 
internal security installations, as well as the coalition 
facilities designed to assist with Iraqi security training and 
transition.
    These visits were invaluable, as they allowed us a 
firsthand look at the real work being accomplished daily by 
members of the ISFs and their dedicated coalition partners.
    The Commission met with more than 100 Iraqi officials, more 
than 100 U.S. current and former government officials, and more 
than a dozen leading nongovernmental experts on the ISFs.
    Finally, the Commission examined previous studies and 
reports, official data, and documents with any information 
relevant to the performance and status of the ISFs.
    We examined their rate of progress and their prospects for 
fulfilling the responsibilities of a professional and effective 
security force.
    Before addressing our key findings, I want to emphasize 
that the findings and recommendations of this Commission were 
unanimous.
    I would also like to note that the Commission could not 
have performed its work without the generous assistance and 
support of many, many individuals. In particular, we're 
grateful for the support provided by the Office of the 
Secretary of Defense, the Joint Staff, the Multinational Force-
Iraq, and the entire military chain of command, as well as the 
Department of State and Embassy Baghdad. We deeply appreciate 
the openness we were shown by many officials in the Government 
of Iraq.
    Ladies and gentlemen of the committee, the ISFs are 
composed of two major components: the Iraqi military and the 
Iraqi police. The Commission examined both components and their 
governing ministries.
    The Iraqi military includes the army, the special forces, 
the air force, and the navy, and they operate under the 
Ministry of Defense. They number approximately 152,000 
personnel today.
    The Iraqi police forces includes the Iraqi Police Service, 
the National Police, the border forces, the Facilities 
Protection Services, and the Coast Guard, and they operate 
under the Ministry of the Interior. Their aggregate number is 
approximately 324,000 today.
    In terms of overall results, the consensus opinion of the 
Commission is that the most positive event that can occur in 
the near-term to influence progress in Iraq is a government-led 
political reconciliation which leads to an end, or a dramatic 
reduction, in sectarian violence. Everything seems to flow from 
this point, to include the likelihood of a successful 
conclusion to our mission. Absent such an event, it will be 
more difficult and will take longer to be successful. Our 
overall evaluation is that real progress has been achieved, 
but, as we will show, it has been uneven across the ISFs.
    With regard to the Ministry of Defense, we judge good 
progress being made, a strategic vision for the future, an 
eagerness to take on more responsibility, thousands of young 
Iraqis are now eager to join the armed forces, and are doing 
so. We have evidence of a worrisome bureaucracy, from the 
standpoint of effectiveness and efficiency, which inhibits the 
distribution of equipment and supplies from getting to the 
Iraqi front lines. The army is led by four Shia, four Kurdish, 
and three Sunni divisions that comprise the Iraqi armed forces.
    With regard to the Iraqi army, impressive progress in 
ability and willingness to defend against internal threats to 
the nation have been noted. Working with police units, where 
possible, to bolster their capability shortfalls, they are keen 
to take on more missions. This is an army that is now providing 
10 operational divisions in the field, going to 13 divisions in 
2008.
    I refer you to the chart on army growth, on page 57 of your 
report, listed as figure 11.
    Sectarian problems appear to be minor, as compared to other 
institutions that we saw in Iraq. Basic elements necessary to 
grow the army appear to be in place, and are functioning. As I 
mentioned earlier, there seems to be an unlimited amount of 
volunteers to serve in this new army.
    An alarming development with regard to the existence of 
duplicate chains of command and intelligence-gathering 
institutions was noted, and, also was noted, the requirement 
for needed improvement in cooperation with other ministries; in 
particular, the Ministry of the Interior. This Iraqi army 
cannot yet operate independently, due to a continuing lack in 
logistics, supply, mobility, and effective national command-
and-control.
    While it cannot defend against the external threats to the 
nation, particularly along the borders of Syria and Iran, it is 
able to do more each day in the defense--along the lines of 
internal security.
    The special forces of the army of Iraq are judged to be the 
most capable and professionally effective military unit in 
Iraq, as good as any in the Gulf region. However, they continue 
to lack in mobility and support systems, as well.
    With regard to the navy and the air force, they are in 
their early development. It was judged that they are making 
satisfactory progress. The Commission recommends consideration 
be given to forming a single maritime force for a nation that 
has a 36-mile coastline. Currently, the navy and the coast 
guard are formed under two separate ministries.
    Turning to the Ministry of the Interior, the Commission 
judges this ministry to be very weak, despite recent attempts 
to change out senior personnel. Little progress has been made 
to date with regard to the efficiencies and effectiveness in 
discharging its functions. There is evidence of sectarian 
partisanship, indications of corruption and of a failed 
bureaucracy, little evidence of willingness to cooperate with 
other ministries, and evidence that this ministry is influenced 
by forces outside of the governmental structures.
    I refer you to a chart on the Ministry of Interior Forces 
Growth, on page 87 of our report.
    The Iraqi Police Service, which is under the Ministry of 
the Interior, numbers approximately 230,000 policemen. The 
salaries of police are provided by the government, but they 
don't always reach the local and regional levels, which fuels 
sectarian tension.
    Police by local ethnically representative units works best 
for the time being. There is an unlimited manpower pool to 
choose from, but, overall, the progress of police forces is 
judged to be unsatisfactory.
    Regarding the National Police, which numbers approximately 
25,000, the Commission has recommended disbanding and 
reorganizing of the National Police, which is judged to be 
overly sectarian, composed 85 percent of Shia policemen, heavy-
handed in their mission execution, not trusted by people of 
other ethnic origins, and there are allegations of corruption 
that pervade this force, as well.
    The Department of Border Enforcement, 37,000, also part of 
the Ministry of the Interior, is judged to be weak, poorly 
supported by the parent ministry, and unable to make a serious 
contribution against border threats, particularly coming from 
Iran and Syria.
    Finally, the Facilities Protection Services, which is 
composed of 140,000 personnel, also suffers from a lack of 
leadership, equipment, training, and direction.
    So, the overall conclusions, relative to our tasking, are 
as follows:
    First is that the ISFs, as a whole, cannot yet defend the 
territorial integrity of Iraq. This is not necessarily an 
alarming conclusion.
    Number two, improvement has been noted in the internal 
security missions. For example, in denying safe haven to 
terrorists. This improvement is likely to continue in the near 
future.
    Number three, it is judged that the ISFs can bring greater 
security to the provinces in the next 12 to 18 months, assuming 
a continuing rate of progress.
    Number four, the end of the sectarian violence has to be 
initiated by the Government of Iraq in order to be effective. 
U.S. and coalition support will be required until independent 
operational capability to defend against external threats to 
Iraq is achieved. Size and mission of coalition military forces 
could be altered in the near future as the Iraqi army and the 
police force continue to develop.
    Mr. Chairman, I'd like to close with a few additional 
observations. In addition to our specific mandate, the 
Commission desires to add some interpretive context to the 
findings and the capabilities pertaining to the ISFs. Our goal 
is to be helpful in trying to arrive at a way ahead that will 
enable success in this critical mission.
    The strategic consequences of failure along national, 
regional, and global lines are significant. Similarly, the 
strategic consequences of success are equally impressive.
    To reiterate, the Commission's overall assessment of the 
ISF is that there has been measurable, though uneven, progress.
    I'd like to say a few words about the impact of the surge. 
Tactical success for both Iraq and coalition forces in the 
Baghdad region has been achieved, and I refer you to page 34 of 
the report, which has an illustrative figure.
    This tactical success has been accompanied by the sudden 
loss of support for al Qaeda by the population and tribal 
leaders throughout al Anbar province. This has had the result 
of gaining approximately 35,000 to 40,000 fighters in support 
of the coalition, as opposed to fighting the coalition. I refer 
you to page 29 of your report, to look firsthand at some of the 
dramatic results that have been achieved in Anbar province.
    The sudden rise in the capacity of day-to-day fighting of 
the Iraqi army also contributes to a favorable and confidence-
building phenomenon.
    You can also witness, by the contribution of the Iraqi 
army, unfortunately, a dramatic increase in the ISF casualties. 
If you would turn to page 38, you will see a chart that depicts 
both the coalition and ISF casualties as a result of the 
fighting.
    We have achieved limited, but important, police success in 
local ethnic neighborhoods, especially in Anbar province. The 
positive trends we saw signaled a possibility of a strategic 
shift for coalition forces, perhaps commencing in 2008. 
Operational attention should be increasingly focused, and is 
increasingly required on the defense of the border regions and 
on the critical infrastructures of Iraq. The gradual shift of 
coalition to strategic overwatch positions, accompanied by 
force adjustments, is possible to envision. This is a very 
recent development.
    The gradual transfer of combat operations against internal 
threats to the ISF is possible. Attention is needed to offset 
major destabilization efforts of Iran and Syria, which are 
ongoing and very worrisome.
    The Commission also believes that it's possible to adjust 
the image of the coalition as an occupying force in Iraq to 
accompany a strategic shift of forces and mission set. This is 
an important element in our strategic messaging, both to our 
people and to the people of Iraq and the world at large. The 
force footprint should be adjusted, in our view, to represent 
an expeditionary capability and to combat the permanent-force 
image of today's presence. This will make an ultimate 
departure--an eventual departure much easier.
    It's important to establish an Iraqi coalition transition 
headquarters, which would be the single focal point for all 
transition efforts, in the broad sense, military, political, 
economic, legal and this would show visible and consistent 
progress towards transition, which is a crucial message that 
people need to understand.
    The Commission also recommends that all of Iraq's provinces 
should be transferred to Iraqi control, as a matter of policy. 
The provincial Iraqi control system, as currently explained, is 
that one-size-fits-all, which does not work, in our judgment, 
adequately. Full transfer of authority of all 18 provinces 
would bolster the Government of Iraq's political reach. I refer 
you to page 40 of the report.
    Seven provinces have been transferred to Iraqi control, and 
there is a projection for others, as well. But the logic of 
such a system was not convincing to the Commission, and we 
believe that political control of the provinces should be 
transferred to the sovereign government, supplementing the 
transfer, of course, with mentoring and assistance to enable 
success.
    To further modify our image as occupiers, the Commission 
recommends that consideration be given to enacting the Status 
of Forces Agreement as a visible means of reinforcing the 
sovereignty of Iraq. This would be consistent with the 
agreements that we have with many other nations, and all of our 
bases should fly both the U.S. and the Iraqi flags.
    Lastly, the Commission noted a internal problem that only 
the United States can fix, and that has to do with regard to 
our national capacity to generate equipment in a rapid 
timeframe identified by U.S. commanders through the Foreign 
Military Sales (FMS) Program. This is a problem that requires 
some urgent attention. It will, when fixed, measurably 
contribute to increasing the readiness and capabilities of the 
ISFs.
    Mr. Chairman, Senator McCain, ladies and gentlemen of the 
committee, my colleagues and I are ready to respond to any 
questions you might have with regard to our study.
    Thank you, Mr. Chairman.
    Chairman Levin. Again, thank you, General and your 
colleagues, for your tremendous service to the Nation.
    General, I'm going to ask you a series of questions to try 
to pinpoint some of the points that you've made in your report.
    There are four categories of capabilities by which we 
assess the ISFs, is that correct?
    General Jones. That's correct.
    Chairman Levin. Category one is an Iraqi unit capable of 
independent operations. Would that be correct?
    General Jones. That's correct.
    Chairman Levin. Category two would be a unit which is 
capable of being in the lead with coalition support. Is that 
correct?
    General Jones. Correct.
    Chairman Levin. Now, the goal is to get more of the Iraqi 
units up to category one or two, is that correct?
    General Jones. That's correct.
    Chairman Levin. Now, there's few of the Iraqi units at 
level one, where they can operate independently, but, according 
to the chart that we got from the DOD, the majority of Iraqi 
units are already at level two. The figure we had is 89 of 159. 
Is that your understanding?
    General Jones. I accept that.
    Chairman Levin. All right. So that if the majority of the 
Iraqi units can already operate at either a one or a two level, 
does that not mean that we could transition the lead to Iraqi 
units as soon as those units are capable of being in the lead?
    General Jones. Senator, if you don't mind, I will ask 
General Joulwan to augment my answer, because this is his 
specialty. But I think a general answer to your question would 
be yes, that we found evidence that Iraqi units are planning 
their own missions and executing their own missions, in close 
coordination with the coalition. We found that the presence of 
advisors and highly qualified teams of coalition members who 
are embedded with the units is absolutely the link that makes 
it possible. Of course, I come back on the fact that, even at 
level two, units of the Iraqi army need considerable combat 
support, combat service support, as you pointed out.
    Chairmen Levin. Is it your understanding--and, General, you 
can just add a quick yes or no--that the majority of the Iraqi 
units that are capable of being in the lead is not reflected by 
all of those units being in the lead? There are some of those 
units that are a category two that are not yet in the lead. Is 
that a fair statement? Is that your understanding?
    General Joulwan. I would say so, yes.
    Chairman Levin. Okay. Now, why is that? General, you were 
telling me, in the office, that the Australians, for instance, 
had moved much more quickly to put those units of the Iraqis 
that are capable of being in the lead, in the lead, with the 
Australians being much more in a support role. Why have we not 
followed that model?
    General Jones. I think the short answer would be that it's 
situationally dependent. The criteria that exists in the 
province in the north would be completely different than the 
province in the south, and I think that metric has to be 
applied carefully and as evenly as possible. But without--
again, trying to find a template that you can impose on the 
Iraqi army, and then simply walk away from it, is not a good 
policy.
    Chairman Levin. Right.
    General Jones. So, I think you have to be evenhanded, and 
you have to do it wherever you can. But the fact that it is 
going on is encouraging.
    Chairman Levin. Is it not also your recommendation, on page 
44, that Iraqi armed forces, ``are capable of assuming greater 
responsibility for the internal security of Iraq?''
    General Jones. That's correct.
    Chairman Levin. Should that not happen as quickly as 
possible?
    General Jones. Yes, within reasonable prudence, we agree 
with that.
    Chairman Levin. All right. Now, when this happens, is a 
reduction of U.S. forces likely to result as the Iraqis--and 
should it result, as the Iraqis assume greater responsibility?
    General Jones. I think, of course, that will be the 
judgment of military commanders on the ground as they assess 
the totality of their mission. I would simply say that what's 
encouraging is that the combination of the police units and the 
Iraqi army, working together, can take on more responsibility 
for the internal threats, but the borders of Iraq, particularly 
the Syrian border, the Iranian border, remain very worrisome. 
So, what we believe is possible is some retasking, realignment, 
readjustment. Adjustment of forces can imply a reduction. But 
that would have to be studied as to how exactly to do that.
    Chairman Levin. On page 130, your Commission finds--and 
you're referring here, as I understand it, to the number of 
personnel, military and civilian, as well as to the number of 
installations and the logistics. You say that, ``Significant 
reductions, consolidations, and realignments would appear to be 
possible and prudent.'' Is that your finding?
    General Jones. That's correct.
    Chairman Levin. That's referring to all of the previous 
itemized items, which are logistics footprints, the number of 
installations, and the number of personnel, military and 
civilian?
    General Jones. Correct.
    Chairman Levin. So, that is, in your judgment, possible and 
prudent?
    General Jones. Correct.
    Chairman Levin. You made reference to this quote in your 
opening statement: ``political reconciliation is the key to 
ending sectarian violence.''
    General Jones. Yes, sir.
    Chairman Levin. Is that a consensus finding on the part of 
all the commissioners?
    General Jones. It is, sir.
    Chairman Levin. Did you make any findings as to why that 
political reconciliation has not been achieved by the Iraqi 
leaders?
    General Jones. No, sir.
    Chairman Levin. Was that within your purview?
    General Jones. It was a little bit outside of our purview, 
just the observed fact that it was not taking place was what we 
concluded.
    Chairman Levin. My time is up.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I'd like to thank 
the members of this Commission. I don't think we've ever had a 
more outstanding group of people who have served our country 
with courage and dedication, such as the members of this 
Commission, and I'm grateful for their willingness to again 
serve and provide not only this committee and Congress, but the 
Nation, with their measured and experienced judgment. I 
especially want to thank you, General Jones.
    I was especially taken by your concluding thoughts where 
you say, ``While much remains to be done before success can be 
confidently declared, the strategic consequences of failure, or 
even perceived failure, for the United States and the coalition 
are enormous.'' I think that's a very important conclusion. I 
believe that if we set a date for withdrawal, as we have 
debated on the floor of the Senate, and will probably again, we 
would do exactly that. Do you believe that, if we set a 
timeframe for withdrawal, that that would be in the United 
States' interest in the region?
    General Jones. Senator, I'll speak for myself on this, but 
I think deadlines can work against us. I think a deadline of 
this magnitude would be against our national interest.
    Senator McCain. I thank you. In your statement delivered to 
the committee, you keep pointing out that we have seen 
significant recent success. Is that an accurate depiction of 
some of your comments?
    General Jones. Correct.
    Senator McCain. How do you account for that?
    General Jones. I think a number of things. I'll just cite 
three, to be very brief. One is the statistical success of the 
tactic employed, called the ``surge,'' which has had some 
impressive successes in the Baghdad region. Number two is the 
recent improvement over the last year, just in the last year, 
of the capability of the Iraqi army, which has shown itself to 
be willing to fight, not only by virtue of the number of 
missions it's taken on, but also by the number of casualties 
it's suffered. Number three is, in the fight against al Qaeda, 
and particularly in the Anbar province, which is a province 
that is one-third the size of the entire country--a very, very 
encouraging turnaround, where----
    Senator McCain. So, part of this success is directly 
related to the new tactic or strategy commonly known as the 
``surge,'' is that correct?
    General Jones. I think the surge is a part of it. I think I 
would also ascribe the success that the coalition has had in 
training the Iraqi army and also the reversal of al Qaeda, 
because of their savagery against the people of the province.
    Senator McCain. If we went back, by mandating withdrawals 
and reducing our military presence too rapidly, some of the 
benefits of the tactic of the surge might be negated
    General Jones. I think you have to adjust your force levels 
very carefully, make sure that you don't create the conditions 
that would have that happen, that's correct.
    Senator McCain. In answer to Senator Levin's question, you 
would rely to a large degree--not solely, but to a large 
degree--on the opinion of the commanders on the ground who are 
doing the fighting.
    General Jones. Absolutely.
    Senator McCain. I think that's important, because there are 
a lot of people who are armchair generals who reside here in 
the air-conditioned comfort of Capitol Hill, who somehow do not 
trust the judgment of some of the finest leaders that our 
Nation has produced. There will be various proposals about 
troop reductions, announcing withdrawals, which may not comport 
with conditions on the ground.
    I just have one other question. If we deploy troops to the 
Syrian and Iranian borders, that could lead to conflict between 
U.S. troops and Syrian or Iranian troops. Have you taken into 
consideration that aspect of the redeployment to the borders of 
Syria and Iran?
    General Jones. Senator, we have. We judge that the goings-
on across the Iranian border, in particular, are of extreme 
severity and have the potential of at least delaying our 
efforts inside the country. Many of the arms and weapons that 
kill and maim our soldiers are coming from across the Iranian 
border.
    Senator McCain. Are we, sooner or later, going to have to 
address the issue of Iran? That may be a little bit out of the 
purview of the Commission's charter, but are we, sooner or 
later, going to have to address the issue of the Iranian 
activities, including a recent statement by the president of 
Iran, who said, ``Iran will fill the void in Iraq when the 
United States leaves''?
    General Jones. That is a worrisome statement, obviously. 
But the Commission has concluded that the significance and the 
level of Iranian activity in Iraq is of such concern that we 
believe that more attention has to be paid to the territorial 
integrity of the country and what's going on across the 
borders. This will be the next step in the growth of the Iraqi 
army. Ultimately, the police will take care of the internal 
threats, and the army will defend Iraq. But it is too soon for 
them to be able to do that, even though that's one of our 
specific charters. They are just now getting to being able to 
do stage one, collectively. That's the internal defense. At the 
rate of growth that we've seen, they will get to the 
territorial issues, but, until then, our assessment is that 
coalition forces need to make a statement and move some of the 
capability out of the internal regions, which are more capably 
handled now, increasingly by the ISFs, to stem the tide of 
fighters, resources, weapons, and contraband coming across the 
borders.
    Senator McCain. Unfortunately, my time is up. I would like 
again to thank the members of this Commission, not only for 
their present work, but for their past service to our country. 
We're very grateful. I think you have given us some very, very 
important and useful information and, I think, a realistic 
assessment of the situation, at least from what I can 
determine.
    Finally, General Jones, are you satisfied with the level of 
leadership that we have at all levels of our military that is 
now in combat in Iraq and Afghanistan?
    General Jones. I will speak for the Commission in providing 
that answer. We were extremely impressed by the leadership, 
both civilian and military, starting with Ambassador Crocker 
and General Petraeus, but also the quality of the leadership in 
both the mission and in the military organization to do the job 
that they're asked to do.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Kennedy.
    Senator Kennedy. Thank you very much, Mr. Chairman.
    I join welcoming General Jones and our panelists here, just 
echoing the sense that many of us who have had the privilege of 
being on this committee have listened to all of you at 
different times, and your service to the country is enormously 
appreciated. The Nation is grateful for your service, and we 
thank you for your presentation today.
    General, you must be able to understand the confusion of 
the American people listening to your testimony today. Here we 
have the greatest military that the world has ever seen, 
fighting in Iraq, a country of 25 million people, which we 
defeated 10 years ago, fighting them now there for 4 long years 
and having the casualty rates that we have. Now we're hearing, 
``It's really an issue of national reconciliation and whether 
the Iraqis are really going to get their act together.'' You 
can understand why Americans are confused when they hear 
General Casey, in August 2006, say, ``I can see that, over the 
next 12 to 18 months, the ISFs progressing to a point where 
they can take on the security responsibility for the country, 
with very little coalition support.'' They listened to General 
Casey tell--they're back home, and they're listening--2006--
General Casey saying, ``12 to 18 months, they're going to be 
able to fight.'' Then in June, DOD indicates that a total of 
346,000 ISFs have been trained, more and more Iraqi army and 
National Police are in the lead in these areas. Then we hear 
your report this morning, 25,000 police are in an organization 
that's filled with corruption, ought to be disbanded; 37,000 
border guards that need a great deal more training, a great 
deal more support, unreliable; the facilities protection, 
140,000, they're weak. How long have we been training Iraqis 
over there? How long have we been training the Iraqi 
servicemen? How long has the United States been doing it? We've 
been doing it now since the time of the invasion, have we not?
    General Jones. Correct.
    Senator Kennedy. We did it in the last 3 years, 
intensively, now. Don't you think Americans are wondering when 
the Iraqis are going to fight for their own country? When you 
tell us that it's going to take, now, another 12 to 18 months 
for the ISFs to be able to take on the security 
responsibilities, and then you indicate to us that, really, the 
fundamental issue is the issue political reconciliation. You're 
not enormously reassuring about the hopes of having a political 
reconciliation. We have the National Intelligence Estimate 
(NIE) report that supports just what you're saying. Government 
will continue to struggle to achieve a national-level political 
reconciliation--talking about months, possibly years.
    So, what should the American people understand about when 
the Iraqis are going to begin to fight for their own country? 
When are they going to be able to relieve American servicemen 
who have been fighting nobly, courageously, valiantly--be able 
to get a policy that's worthy of their bravery and valor?
    General Jones. Senator, you ask a very good question. It's 
a very complex situation. We tried to point out that the key to 
ending sectarian violence has to be found within the Iraqis 
themselves. They simply have to find the means by which they 
can lay down their arms. When they do that, the change 
internally in the country will be dramatic. That will allow a 
much greater acceleration to the end that we all hope we can 
achieve.
    However, we tried to draw a distinction, which was why we 
say there's real progress, but that it's uneven, between the 
capabilities we found in the Ministry of Defense and the 
emerging Iraqi armed forces, and the Ministry of the Interior 
and its force structure of police forces. Our assessment is 
that, where the Iraqi army is concerned, the Iraqi army is 
fighting. They do have 10 full divisions. They're going to 13 
divisions by the following year. We have been to their training 
bases. We've seen their new recruits. We've seen their 
noncommissioned officer (NCO) schools. We've seen their 
academies. We've seen the NATO contribution to training young 
officers. We believe that, within their capabilities, such as 
they are, they are doing reasonably well and making a 
difference. We did not find the same optimism in the Ministry 
of Interior and the police forces.
    So, our respectful conclusion is that more needs to be done 
to change that.
    Senator Kennedy. Let me ask you, can the adequate training 
continue with less than 160,000 American troops, as proposing?
    General Jones. Let me ask General Joulwan, who headed that 
syndicate.
    General Joulwan. Senator, the quick answer is yes. I think 
what is important----
    Senator Kennedy. Let me go down the line a little bit.
    Can it go down to 100,000, and still have the training? 
What's the figure?
    General Joulwan. I think what we have seen with what we 
call the ``surge is a tactical success creating a secure 
environment'' that should have been done 4 or 5 years ago, when 
we went in there. We're seeing that now. The issue, to me, 
Senator, is, how do you reinforce the tactical success that you 
have with the surge over the last few months? That, to me, is 
the issue. Remember, the Iraqi army is training and building an 
army while they're engaged in war. We dismantled the army, and 
they're training and building while they're conducting a war. I 
found some very good examples of where they can take the lead. 
Their special forces can operate independently right now, as 
far as I'm concerned. They need some enablers. I think we have 
to understand that.
    The issue is--what is the strategy to reinforce the 
tactical success on the ground? That, to me, is the fundamental 
issue, and we give some examples here.
    As to how many forces that's going to take, I think we need 
to start transitioning to an Iraqi lead, not a U.S./coalition 
lead. Whether it's 6 months or 12 months, I think the signs are 
there to do that, and we have to reduce that dependency. How 
many Americans that's going to take--as we say in the report, I 
think we have become overly dependent on the logistics and 
support areas that can be reduced, as well. So, as we go to 
what is called the ``strategic overwatch,'' there can be a 
reduction. But I would leave that reduction to the commanders 
on the ground and the political leadership of what direction 
that should go.
    Senator Kennedy. Thank you very much.
    General Jones. Senator, if I could please ask Chief Ramsey 
to comment because the police aspect of this is extremely 
important.
    Mr. Ramsey. Thank you.
    Senator, the police have not made as much progress as the 
military. They are not, at this time, capable of filling the 
void that would be left once the military left the province, 
having cleared it of insurgents and militia, or at least 
neutralized the threat. That's due to a variety of reasons. 
When you look at the Iraqi police service, a lot of that is due 
to the fact that they're ill-equipped to handle that mission. 
They have soft body armor. They're issued an AK-47 and a couple 
of uniforms. They're still riding around in thin-skinned 
vehicles. The day we were talking to the police chief in 
Baghdad, he had two officers killed while we were there. Then, 
the day before, he lost three. He lost 550, just out of that 
one police station, last year. When we were there in July, the 
death count was up to 230 police officers.
    So, they're being lost at an alarming rate, because they 
just aren't being supported the way they ought to be supported. 
I think they can make very rapid progress once the Ministry of 
Interior issues are addressed. That's the Iraqi Police Service, 
not the National Police. That's a totally different issue.
    Senator Kennedy. Thank you.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Again, thank each and every one of you for this very 
valuable report. I thought your opening presentation covered it 
very well, General Jones.
    I'd like to return to the issue of the borders. Clearly, 
the Iranian influence coming across that border, be it in 
weapons or people or trainers or whatever, is a very 
significant factor imperiling the ability of our forces to 
bring about greater stability.
    Now, I draw your attention to page 129, which I think is a 
very important part of this report. I'll read it, ``The 
circumstances of the moment may continue to present the 
opportunity for considering a shift in the disposition and 
employment of U.S. forces. This could be characterized as a 
transition to a strategic overwatch posture. Such a strategy 
would include placing increased responsibilities for the 
internal security of the nation on the ISF--especially in the 
urban areas.'' I certainly agree with that strongly. Further, 
``coalition forces could be retasked to better ensure the 
territorial defense of the state by increasingly concentrating 
on the eastern and western borders and the active defense of 
the critical infrastructures to Iraq''--namely--that's the 
power and the electricity. To me, this is the heart of what you 
recommend. I'd just simply ask this question, because, in our 
private consultations, you have emphasized that the U.S. forces 
are better trained and better equipped to handle the mission of 
border security than are the Iraqi forces. Now, the Iraqi 
forces may be approaching that, but we have special detection 
equipment. We have special training. Could one member of the 
panel here--General Jones, General Joulwan--emphasize how we 
are better qualified to do that border security, and thereby 
lessen the Iranian influence, the Syrian influence, which is 
leaking across these borders, be it weapons or trainers or 
otherwise?
    General Jones. Senator, if I may ask Lieutenant General 
Berndt to come to the table and--he studied that, particularly, 
and I'd like to ask him to respond to your question.
    Senator Warner. Thank you, General Jones.
    General Berndt. Thank you for the question, Senator.
    First of all, if I may, the people that we talk to on the 
border, both ISFs and their coalition transition teams, they 
want to do a good job. There's no question about that, in our 
minds. The problems that they face are significant, however. 
The do not have the benefit of the technology, that we would 
expect to see, to prevent smuggling and weapons and bad people 
from crossing their borders.
    On the Jordanian border, for example, the table of 
organization calls for 243 people at that port of entry. There 
are currently 112. They have two backscatter radars to check 
vehicles, neither of which works. They don't have a central way 
of checking people's identity to ensure that folks are coming 
across that shouldn't, or a means of getting intelligence on 
when that may happen.
    As a result, while they want to do a good job, they are 
just not properly supported to be able to do that, and, in some 
cases, the director of the port responsible for that port is 
reaching into his own pocket to pay for things like fuel.
    Senator Warner. Let's focus on the Iranian border, because 
that's where the critical elements are. What is the type of 
technology we could provide--what is the type of training our 
people have, that can supplement the current security situation 
and, hopefully, make a material difference?
    General Berndt. Yes, sir. There are several things, I 
believe. There are five backscatter radars at the land port of 
entry with Iran. At the time that the Commission visited, none 
of them were working. You can't really check vehicles if you 
don't have the ability to see what's inside that vehicle. So, 
they need to be fixed, but there are better systems available. 
They are more expensive systems.
    Senator Warner. They're in U.S. inventory?
    General Berndt. Yes, sir, they can be purchased. It appears 
that there's a reluctance to do that, because of the cost. But 
some basic things--forklifts, cranes--the type of things you 
would expect that people would have at their disposal to check 
cargo. We witnessed an 18-wheel truck pulling up full of 
bananas, and, on the top of that truck were three Iranian young 
men, literally pulling bananas off the top and setting them on 
the side so they could see what was in the vehicle. Not a very 
efficient way of doing business. By their own admission, 95 
percent of the things that come into Iraq come through the 
ports of entry.
    Senator Warner. Did you bring to the attention--General 
Petraeus and perhaps General Odierno, who, incidentally, I 
think, is an extraordinarily capable officer--this 
recommendation, that in our inventory is the equipment to help 
better seal that border, and our forces could possibly do that 
job, and supplement it, better than it's now being done?
    General Berndt. We did, sir.
    Senator Warner. What sort of response did you get?
    General Berndt. Not only did we make the recommendation, 
the recommendation is being made by the coalition transition 
teams that are co-located with those units. As a matter of 
fact, from one of the ports of entry I have a 7-page list of 
requirements for that particular port of entry that were 
submitted up the chain of command. I don't know this for a 
fact, so I don't want to get out of my lane here, but the 
problem is, with regard to the border, that the requests for 
support, infrastructure, improvement of roads, electricity, 
water, you name it--they don't seem to go up and then come back 
down with something that can be actually used to help those 
people do the job that they want to do.
    Senator Warner. General Jones, I draw your attention to the 
NIE that was issued, and it is, I think, an excellent guidepost 
as to our future strategy in Iraq. I'd like to ask if your 
Commission concurs with the findings. For example, just the 
first finding of the NIE stated that the ISFs have not improved 
enough to conduct major operations of the coalition on a 
sustained basis in multiple locations, and that the ISF remains 
reliant on the coalition for important aspects of logistics and 
combat. I think you've already answered, you agree with that.
    General Jones. It's generally consistent with our findings.
    Senator Warner. Good. The increase in the army end strength 
to address critical gaps will take 6 to 12 months, and probably 
be longer, to materialize.
    General Jones. We would agree, but that's not unreasonable, 
in army elements.
    Senator Warner. Insurgent militia and insurgent influences 
continue to undermine the reliability of the Iraqi force units.
    General Jones. Probably true.
    Senator Warner. The deployment of ISF units throughout Iraq 
to Baghdad in support of security operations marks significant 
progress since last year.
    General Jones. Concur.
    Senator Warner. Political interference in security 
operations continues to undermine the coalition and ISF 
efforts.
    General Jones. General agreement.
    Senator Warner. Lastly, the NIE also assessed that changing 
the mission of coalition forces from primarily a 
counterinsurgency and stabilization role to more of a support 
role, would erode security gains achieved thus far. That seems 
to be somewhat in conflict with one of your basic findings.
    General Jones. It is. I think it's a question of degree and 
timing--how you do it, when you do it.
    Senator Warner. It's the timing.
    General Jones. I think you're not going to turn the page 
and all of a sudden, switch to another metric. But our finding 
is that, over time, and starting in the relatively near future, 
this is the logical next step for how we should use our forces.
    Senator Warner. I would hope the President would take in 
consideration the valuable findings that you made.
    General Jones. Thank you, sir.
    Senator Warner. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Senator Byrd.
    Senator Byrd. Thank you, General Jones. Our policy in Iraq 
has long been linked to the performance of Iraq's own security 
forces. As President Bush said, we would stand down as Iraq 
forces stood up. After more than 4 years of this interminable 
war, we have yet to see much standing up by the Iraqis. 
Instead, we have seen more U.S. troops sent into the line of 
fire. A number of us in the Senate have questioned the rosy 
assessments routinely provided by the White House about the 
readiness of the Iraqi forces. Too often, those reports do not 
seem to match reality. That was the reason for establishing 
this Commission, to help us get some truth--truth--truth about 
the progress of our efforts in Iraq. Your conclusions the 
Commission reached are deeply troubling, and, to my mind, call 
into question the whole foundation of the administration's 
strategy in Iraq. Standing down only after Iraq is ready to 
stand up seems to be a recipe for an unending U.S. occupation.
    General Jones, your report notes evidence of improvements 
in Iraq's security forces which states that they will not be 
able to operate independently--independently--for the 
foreseeable future. Imagine if, after Pearl Harbor, the 
Chairman of the Joint Chiefs told the President that it would 
take him 5 years to raise an army or a navy. It takes us a few 
months to turn a U.S. citizen into a combat-ready soldier. In 
Iraq, we have been at this effort for more than 4 years. The 
reason we are able to train a soldier or a policeman so quickly 
is because we have to. No one else will do it for us. As long 
as someone else is willing to assume the risk for Iraq's 
security forces, I do not see them rushing to fill the breach, 
themselves.
    General, what incentive is there for Iraq to step up and 
take on its own security if we continue to do it for them?
    General Jones. Senator, thank you for that question. I 
think that, within our report, we tried to express the sense of 
the Commission, that in units of the Iraqi army we are seeing 
the development of that spirit, of that willingness to fight 
for the Nation, and to put their lives on the line. The 
statistics show that, at the rate of over three-to-one 
casualties being suffered are being suffered by the Iraqi 
forces. We find that to be encouraging. We would be much more 
happy to sit here and also be able to say the same thing about 
the police forces, which is the next critical link that has to 
be developed. But, as to the progress of the Iraqi army, I 
believe that we are of one mind that we were impressed with 
what we saw. As Chief Ramsey mentioned, with regard to the 
police force, that if we could get the same type of will and 
the same type of support generated for the development of those 
police forces, and the Iraqi government could bring about a 
reconciliation that would either bring and end or significantly 
diminish the sectarian violence, then I think we would be on a 
much more rapid road to progress.
    Let me ask my colleagues if they're like to add to that.
    General Joulwan. What we've seen in the Iraqi army is this 
recent tactical success because of, now, creating a secure 
environment for them to operate in. They've been afraid to go 
back to the homes and villages, because they were targeted. 
There is now some progress. It takes time, when you've 
dismantled an army like we did, to build and train an army. The 
trends are in the right direction. How we build on that 
success--incremental though it is--is going to be important. 
That is going to take some time. I think we're heading in the 
right direction. But, again, it's political clarity that's 
important here, to be able to take advantage of the tactical 
success that we've had on the military side.
    Chief?
    Mr. Ramsey. Senator, as far as the Iraqi police service 
goes, it's very similar to what was experienced in the army, 
trying to rebuild a police force in a time when they're in a 
combat situation. It's not an all-bad news story. There are 
about 230,000 members of the Iraqi police service. We visited 
many of the training sites, and, quite frankly, we were very 
impressed with the level of training that was taking place. In 
fact, when we visited Anbar province, at Habbaniyah, the 
academy there, the courses were being taught by Iraqi 
instructors, there was a great deal of enthusiasm on the part 
of recruits. People are working very hard.
    The problem on the police side is that there simply aren't 
enough trainers, and, because of the security environment, they 
often are not able to get to training sites on a consistent 
basis to provide the training, so they continue to fall behind.
    At the provincial level, they're hiring police officers, 
not through the normal process, so you have people being hired 
that are receiving almost no training at all. So, that's a 
constant problem of trying to keep up.
    So, there are some positive things going on, but that's not 
to say that they don't have significant challenges, because 
they do.
    Senator Byrd. General, an article in this week's Washington 
Post noted that a fundamental problem with Iraq's security 
forces is that many are thoroughly infiltrated by sectarian 
militias. As one U.S. soldier said, speaking of an Iraqi army 
battalion we are training in Baghdad, ``We're trying to get 
them to develop enemy targets, but the enemy targets are their 
friends.'' Some of the conclusions in your report also 
reference this issue, which seems to go to the heart of the 
problem in Iraq. No matter how much training and equipment we 
may provide Iraq's security forces, we can never, never force 
the political and sectarian reconciliation that is ultimately 
required from the Iraqis. In fact, we may be inadvertently 
supporting one side of a civil war against another.
    General, to what extent are Iraq's security forces 
contributing to the growing sectarian split in Iraq? Doesn't 
this call into question the very core of our strategy?
    General Jones. Senator, sectarianism is a endemic problem 
in Iraq, and it has to be addressed by the Iraqi government, as 
we've said.
    Since there are two portions of the ISF, I'll ask General 
Joulwan to address the military side of your question, and the 
Chief to address the police side.
    General Joulwan. Senator, as I said before, it takes time 
to build and train an army. I think that's what we're seeing 
going on now. The trends--what we're trying to report here--we 
think, are in the right direction. It is going to take time. 
But, without a political overview, without some political 
clarity, without political movement, capacity-building, I would 
call it, on the institutional side of political institutions, 
much of what success or tactical success we're seeing on the 
military side, I think, will not succeed in the end.
    General Jones. Before I pass to Chief Ramsey, the overall 
conclusion of our Commission was that the sectarianism is a 
problem throughout the country, that it is less a problem in 
the military, more of a problem in the police.
    Mr. Ramsey. Senator, a lot of the problems that you've 
identified on the police side are due to very poor vetting 
procedures that were followed in the past. It has improved. 
They're taking advantage now of some biometrics, retinal scans, 
fingerprints, and the like. Their database obviously isn't very 
complete, so the results of those checks aren't always that 
reliable. But the process is at least beginning.
    There is a problem with infiltration of militia and 
insurgents in Police. Both the Iraqi police service and, we 
believe, the National Police, as well. But the people are aware 
of it and are doing what they can to try to rid their ranks of 
those individuals, but it's a very difficult situation. For 
those that have been there in the past, and have seen this over 
time, they say that it is far better than it was. But it still 
has a long way to go, and that gets right at the heart of 
trust, when it comes to police, the trust on part of the 
public, trust on part of the military, trust on part of others, 
and information-sharing doesn't take place like it should, I 
think, due, in large part, to the fact that people are afraid 
if they divulge sensitive information, that information will 
get in the wrong hands.
    Senator Byrd. Thank you.
    General Jones. I'd ask Dr. Hamre, who would like to make a 
comment.
    Dr. Hamre. Sir, just very briefly. The sectarianism has 
crippled the Ministry of Interior, and that ineffective 
ministry is the core problem that's keeping us from developing 
competent policing.
    Senator Byrd. Thank you, Dr. Hamre.
    Thank you.
    Senator Kennedy [presiding]. As our chairman pointed out, 
there is a series of votes now. There's several minutes left, 
if there is a member that wanted to stay. I'd be glad to 
recognize them at this time, or we'll go into a recess.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman.
    Again, I thank the Commission for your work in this 
excellent report.
    I guess I would follow up, to some extent, on Senator 
Kennedy's questions, because clearly this is a very difficult 
dilemma that our country faces, and that we, sitting on this 
side, face as well. The theory behind the tactic of the surge 
was that adding these troops would create the political space 
for some kind of political reconciliation--``reconciliation'' 
maybe too hopeful a term, but certainly political compromise 
that could lead to a greater commitment to the stability and 
security of the country, and an end to the sectarian and 
personal advantages that were being sought. It is clear in your 
report, as well as in the NIE, that the Iraqi government will 
struggle to continue to achieve such national reconciliation.
    What, if any, factors that you assessed in your work on the 
security forces leads you to believe that the government will 
pursue this political reconciliation?
    General Jones.
    General Jones. Senator, that question is a little bit 
outside of our charter. The only thing the Commission observed 
is that, absent such a reconciliation, which has not been 
codified, at any rate, even though we were encouraged to hear 
that--in our conversations with senior Iraqi officials, members 
of the government, that they are working on it, that they 
understand the importance of it. But the fact is, it hasn't 
happened. We regret that because that certainly is a key to 
accelerating the progress that we would all like to see in 
Iraq. So, we've identified that, very strongly, as essentially 
the starting point for good things to take place.
    On the surge, I'd like to just say a few words about that. 
The surge had two components to it. One was Iraqi, and the 
other was coalition. The surge itself had an effect, but it had 
effect in the area where it was concentrated, and that is the 
Baghdad region. Two other phenomenon that also happened 
simultaneously to enhance the security situation were the 
unexpectedly good performance of the Iraqi army, which is a 
credit to our trainers and those who have brought them online, 
and also the stunning turnaround in al Anbar province, where al 
Qaeda lost the popular support of the people, which has 
resulted in the country's most violent province becoming one of 
the most peaceful.
    So, those three things--the surge, the Iraqi army's 
performance, and al Qaeda's reversals--have been positive, in 
terms of the ISFs. But this progress will always be measured 
against the overall sectarian problem in the country, and it 
simply has to be a political solution.
    Senator Clinton. Of course, that's our dilemma. How do we 
get the appropriate pressure on the Iraqi government to do what 
we know they must do for the Iraqi people to have any future 
and for us to withdraw and hope that there can be some 
stability in the region?
    I am concerned that we are not getting answers to the 
questions that we need from the administration. In fact, I 
think it's fair to say that Senator Warner led the effort to 
have this Commission created to get an independent judgment, 
because we've heard so much contradictory information going 
back, now, so many years. I wrote a letter to the President, 
yesterday, requesting that General Petraeus and Ambassador 
Crocker be prepared to address 20 questions that come from the 
NIE, the Government Accountability Office (GAO), and your 
Commission report, because, at the end of the day, we have to 
make judgments on whether or not we believe continuing military 
presence by American troops, whether they're in Iraq for a day, 
a year, or 10 years, will make any difference to the Iraqi 
government and the Iraqi people. I have, obviously, reached a 
conclusion that I don't see that difference occurring, I don't 
see the Iraqi government responding. If we take away deadlines, 
we take away benchmarks, we take away timelines, what is the 
urgency that will move them to act? You can have pockets of 
stability. We're now seeing, as the British withdraw in the 
south, a lot of the militias vying for power within the south. 
You're seeing the Iranian proxies and the Saudi proxies and 
everybody else's proxies, looking for advantage.
    So, I think that your Commission has certainly performed a 
great service, but one of the problems is that, in evaluating 
Iraqi policy, the administration and the Iraqi government keep 
moving the goal posts for success. I am deeply concerned that 
we're not going to see any difference in 12 to 18 months, but 
we'll see more American casualties, and we'll see the 
opportunity costs of our being bogged down in Iraq, with 
respect to all of the other challenges we face, from Iran to 
the Middle East to China and everywhere else.
    So, Mr. Chairman, I greatly appreciate the Commission's 
report, and I'd better go and try to get this vote in.
    I thank you all very much.
    Chairman Levin [presiding]. Thank you, Senator Clinton.
    Senator Warner has a quick follow-up if that's all right 
with Senator Cornyn.
    Senator Warner. Thank you.
    Following along Senator Clinton's observation, I made a 
similar observation in my opening statement, but I'd like to 
have your answer to this question. Is there not a direct 
correlation between the level of success of political 
reconciliation and the dangers to forces fighting the 
insurgents or any other element on the battlefront? Namely, to 
the extent you get political reconciliation, in my judgment, it 
lessens the danger to the individual troops, or groups of 
troops, fighting, wherever it is in Iraq.
    General Jones. Senator, you're absolutely right. It 
clarifies the whole situation, because if you get a meaningful 
reconciliation, which means that the leadership of the three 
major ethnic groups tell their militias to lay down their arms, 
the landscape of Iraq is transformed immediately, in terms of 
the security to our forces and Iraqi forces. The police have an 
opportunity to develop into a meaningful force.
    If you can impress on the government the need to develop 
national institutions that are composed of all ethnicities and 
equally represented, and do this in a sensible way, but without 
the backdrop of violence and the fear of terror, the 
transformation in Iraq would be, I think, very rapid.
    General Joulwan. Senator, one of the observations that I 
came to, when I asked, from the Minister of Defense to his 
division commanders on down, whether they were Sunni, Shia, or 
Kurd, they would respond to me, ``I'm an Iraqi.'' I think the 
army, in particular, there is a possibility to have this 
integration. I see trends in that direction. I think it's too 
early to tell, but we ought to try to foster that. We saw that 
when the NCOs went to the academies, that good NCOs are being 
developed in a way that really tries to foster this working 
relationship to get away from sectarianism. But it's going to 
take time. Remember, we destroyed this army, or dismantled the 
army, and we're trying to build it up again.
    Senator Warner. I understand that, General, but we have to 
understand here at home. Every day that goes by, you do not 
have political reconciliation from the top down. Now, there's 
some of it beginning at the bottom to come up, like sheikhs and 
so forth, trying to resolve problems in their provinces. Until 
it comes from the top down, our troops are at greater risk, and 
we continue to take our casualties, killed and wounded.
    General Joulwan. That ought to come from Washington 
straight to Baghdad. You can't expect the military to do that, 
Senator.
    Senator Warner. No, I'm not suggesting that, because 
military witness after military witness, over these years that 
this committee has conducted hearings, have constantly said 
there is not a military solution to these problems in Iraq. Do 
you agree with that?
    General Joulwan. Yes, sir.
    Senator Warner. Thank you.
    Chairman Levin. Okay, just a quick fine point on that. You 
would agree, I think, from your report, General and others, 
that the failure of the Iraqi politicians, the national 
leaders, to reach political agreement is costing American lives 
and American casualties.
    General Jones. I would agree with that, and I would also 
add that it's costing Iraqi lives, as well.
    Chairman Levin. Of course. Absolutely.
    Senator Cornyn.
    Senator Cornyn. General Jones, thank you. Thanks to the 
entire Commission for your tremendous continuing contribution 
to our Nation. You represent a tremendous national resource, 
and I want to express my gratitude, along with everyone else, 
for your tremendous assistance in helping Congress understand 
what we're confronted with and, perhaps even more importantly, 
the American people.
    I just want to summarize a couple of things in the 
assessment, because while it's obviously a mixed bag, it does 
represent some good news, as well. I think we can't just ignore 
the good news, and that is that you find that the Iraqi armed 
forces are increasingly effective and capable of assuming 
greater responsibility for internal security of Iraq, and the 
Iraqi police are improving, although you've noted a 
significantly more serious problem with them. You assess that 
over the next 12 to 18 months, there will be continued 
improvement in the ISF readiness and capability. You make a 
finding that the ``clear, hold, and build'' strategy that 
began, but was not really implemented until this summer, is on 
the right track and shows potential. You say that the Iraqi 
army and Iraqi police service have the potential to help reduce 
sectarian violence.
    I want to just ask you straight up, General Jones, if you 
could speak, either individually or on behalf of the 
Commission, in explaining the statement on page 129 of the 
report, when you talk about the strategic consequences of 
failure. We can all debate, is the glass half full or the glass 
half empty? What do we do to encourage political 
reconciliation, which we all know is important to bringing our 
troops home and maintaining--and achieving stability in the 
region. I'm not sure that people understand well enough the 
consequences of our failure in the region. The statement here 
is that, ``The strategic consequences of failure, or even 
perceived failure, for the United States and the coalition are 
enormous.'' Could you explain to mothers and fathers, perhaps 
watching this on cable news or C-SPAN, why it's important to 
them and to the security of the American people? Because I 
think some people perceive this as just a risk to the Iraqis or 
people in the region. I believe that's not an accurate reading 
of the risk. Could you explain that?
    General Jones. Yes, sir. I'll give you my personal views on 
this, but I would also invite any members of the Commission to 
feel free to express their own views.
    Senator, to try to be brief but thorough, I believe that 
there are three levels of strategic concerns here that are at 
play. The first is national, the second is regional, and the 
third is global.
    On the national basis, the United States has clearly 
established itself in the 20th century as a Nation of great 
influence, and achieved many, many great things. As a matter of 
fact, success on the battlefield and success in the areas of 
rebuilding friends and allies, or defeated enemies, if you 
will, is part of our history, and one that I think Americans 
are justifiably proud of. As a matter of fact, we refer to one 
of our generations as ``The Greatest Generation,'' and I agree 
with that.
    The 21st century announces itself as being a century of 
incredible complexities. What was bipolar in the 20th century 
is now multipolar. What was symmetric is now asymmetric. The 
forces that are arrayed against us and our way of life, as a 
freedom-loving people, are significant.
    Whether it's Afghanistan or Iraq, these are the 
battlefields where this question will be resolved. The answer 
to those questions are very complex and very time-consuming, 
but nonetheless, very important.
    On a national basis, I personally don't believe that the 
United States can afford to be perceived as having not been 
successful in either Iraq or Afghanistan, and I think the 
consequences for such a perception, or such a reality, will be 
with us for years to come, in terms of our ability to be the 
Nation of great influence in the 21st century. I don't think 
it's predestined that we get it for nothing. We didn't get it 
for nothing in the 20th century, we won't get it for nothing in 
the 21st century. The young men and women who wear our uniform 
and who are representing our country in civilian clothes around 
the world are doing a magnificent job making sure that doesn't 
happen. Iraq just happens to be one of the focal points where 
that primacy is being tested, and the national will is being 
tested.
    So, for all kinds of reasons that have to do with how this 
country is perceived around the world in the future--maybe 10, 
15, 20 years from now, it's important that we be successful.
    There's a regional consideration, as well. Iraq, as a 
stable nation, sovereign nation, is important to the security 
and the balance of the Persian Gulf. It's important to check 
the rise of Iranian influence. It's important to stem the 
efforts of the Syrian Government that--across whose borders 
about 70 to 80 fighters flow a month, and who are reported to 
have training camps. It's important that the regional stability 
of the Gulf be maintained, and the United States being 
successful on that side of the issue will be a key contributor 
to it.
    It affects the global strategic issue, in the sense that at 
the basic level--the flow of energy and the importance to the 
world that the energy from the Persian Gulf and the surrounding 
states plays in the economic stability of our economies and the 
economies of our friends and allies.
    So, there is a great deal at play here--national pride, 
national influence in the 21st century, a test of wills--do we 
have what it takes to stay the course and be successful?--
regional balance with global implications. I think all three of 
those things are very important.
    Let me ask my fellow commissioners if they would like to 
add to that.
    General Joulwan. I would only add, Senator, that, I think, 
as we go about this, we have to understand we're not alone in 
this venture. How we work with our allies, how we broaden the 
base of what we're trying to do, not only in Iraq, but in the 
total region, I think, is extremely important. It can't just be 
``our way or the highway.'' I think we have to include them in 
what we're doing, and build that consensus, political as well 
as diplomatic, military, and economic consensus, for the way 
ahead. That, to me, is going to be vital in the next year to 10 
years.
    Senator Cornyn. If we leave Iraq before it has the 
capability to defend and govern itself, and it results in a 
failed state, does that make America, and Americans, less safe?
    General Jones. I think that precipitous departure, which 
results in a failed state in Iraq, will have a significant 
boost in the numbers of extremists, jihadists, however you want 
to call it, in the world, who believe that they'll have toppled 
the major power on earth and that all else is possible. I think 
it'll not only make us less safe, it'll make our friends and 
allies less safe, and the struggle will continue; it will 
simply be done in other areas.
    So, yes, I think the answer to that question is yes.
    Senator Cornyn. Mr. Chairman, thank you very much.
    Chairman Levin. Thank you, Senator Cornyn.
    General, I want to go back to page 130 of your report, 
because it seems to me that what you're recommending there is 
critically important to our deliberations.
    You've talked about a massive logistics footprint, many 
installations, U.S. installations, and the number of personnel, 
military and civilian, and you've said that the unintended 
message of the size of that is one of permanence, an occupying 
force, where what is needed is the opposite impression, one 
that is lighter and less massive.
    Then, going down a line, it says that you recommend that 
careful consideration of the size of our national footprint in 
Iraq be reconsidered with regard to its efficiency, necessity, 
and cost. Then, to me, the critical line, because this goes to 
the heart of what our debate is, that significant reductions--
and, as I asked you before, that includes all three--reductions 
in the logistics footprint, the number of installations, and 
the number of personnel, military and civilian, that 
significant reductions in those--consolidations and 
realignments--would appear to be possible and prudent. I want 
to put that in what I consider to be a logical order.
    First, by my logic, you recommend that we reconsider the 
size of our national footprint, for a number of reasons, which 
you state. Second, you say it's prudent to make significant 
reductions of U.S. military and civilian personnel.
    Third, you've said, in another page, on page 44, that Iraqi 
armed forces--army, special forces, navy, and air force--are 
increasingly effective and are capable of assuming greater 
responsibility for the internal security of Iraq.
    Now, that leads to the other question, which is the 
assumption of that greater responsibility by the Iraqi forces, 
you've indicated, should lead to a reduction in the number of 
our forces. So far are we together?
    General Jones. We're together.
    Chairman Levin. Now, what you've done, though, as I 
understand it, you have not said what the amount of the 
significant reduction of those forces is. You have not put a 
numerical amount on that. Is that correct?
    General Jones. That's correct.
    Chairman Levin. Other than saying it should be significant. 
We're together?
    General Jones. We're together.
    Chairman Levin. Okay. Now, how many of the Iraqi units that 
are capable of taking the lead--that would be either a unit--
category 1 or a category 2 unit--are now not in the lead? Do 
you have a number for that?
    General Jones. I think the reason we're struggling with the 
answer is because the definition of what it means to be in the 
lead is a little bit soft.
    Chairman Levin. Okay. But would you agree--and this is my 
clear impression--that there are a significant number of Iraqi 
units that are capable of being in the lead now, that are not 
yet in the lead? Is that fair?
    General Joulwan. Yes, I would say yes. We're talking 
enablers, we're talking logistics to help them. But I would 
also say, as we try to say in the report, in 12 or 18 months, 
which you charged us with, there'll be more of those available. 
How many more--but there will be more, and, I would think, 
significantly more, if we do certain things.
    Chairman Levin. Of course, that's where the enablers come 
in.
    General Joulwan. FMS.
    Chairman Levin. FMS. By the way, we're getting into the FMS 
issue, believe me.
    General Joulwan. That's important.
    Chairman Levin. Believe me, we're going to get into that. 
But I want to go back.
    The 12- to 18-month charge was what you were asked to look 
at.
    General Jones. Yes, correct.
    Chairman Levin. You were not asked to say how many Iraqi 
units, right now, that are either category 1 or 2, could be put 
in the lead, that are now not in the lead, and what number of 
American troops that would reduce. Is that correct? You were 
not asked to do that, or you were asked to do that?
    General Jones. We weren't asked specifically to say how 
many could be in the lead. We were supposed to assess their 
capabilities--12 to 18 months out.
    Chairman Levin. Okay. I want to go back to what, to me, is 
really a fundamental question. Do we have agreement on that 
point, that there are some Iraqi units that are capable of 
being in the lead now, that are not currently in the lead? Can 
we just agree on that much?
    General Jones. I am still not clear as what the term 
``lead'' means.
    Chairman Levin. That's category 2. Are there currently 
category 2 Iraqi units that are not now in the lead in their 
operations, that have the capability, but that are not now in 
the lead?
    General Jones. I think that depends on the situation. For 
example, there could be some operations that are launched by 
the Iraqi units, independent of the coalition, because they 
don't need too much support. Conversely, there are others that 
are more complex, where they would need coalition support, and 
they might not be in the lead for that aspect of it.
    Chairman Levin. All right.
    General Jones. So, I don't think there is one answer to 
that question.
    Chairman Levin. Let me go back to page 44, then. When you 
say the Iraqi armed forces--you identify all of them--are 
capable of assuming greater responsibility for the internal 
security of Iraq.
    General Jones. That's correct.
    Chairman Levin. That's your finding.
    General Jones. That is correct.
    Chairman Levin. The next question is: we have that 
possibility right?
    General Jones. Exactly. We think that it's there. Yes.
    Chairman Levin. Now?
    General Jones. Now.
    Chairman Levin. Okay, and is there any reason why we should 
not begin now to transfer that responsibility, and to utilize 
that capability? Or is that what you're recommending in this?
    General Jones. No, I think there are two answers to that. 
One is that, I think, increasingly, that is what's going to 
happen. I think we've seen some evidence----
    Chairman Levin. Not ``going to.'' Should it happen, 
General?
    General Jones. I think there is some evidence that it's 
happening already, today.
    Chairman Levin. Should it happen?
    General Jones. I think it should happen whenever possible.
    Dr. Hamre. Every single unit we saw still needed to get 
fuel, ammunition, and uniforms.
    Chairman Levin. I understand. But they have the capability 
now. You've said they have the capability now.
    General Joulwan. For certain missions, yes, sir, they have 
the capability now, and they're doing it.
    Chairman Levin. So, in other words, what you're saying is 
that they are utilizing, right now, their capability that they 
have. Is that what you're saying?
    General Joulwan. The special forces brigade, in particular, 
is able to conduct, for the most part, independent operations.
    Chairman Levin. That's category 1. I'm talking about the 
category 2 forces, which you've indicated on your chart there's 
a significant number of category 2 forces. Is it not fair to--
which are capable, with our support--with our support, of 
taking the lead. I think your report is clear on it. But is it, 
or not? Is there not now a significant number of category 2 
Iraqi forces capable of taking the lead that are not yet in the 
lead?
    General Jones. Exactly.
    Dr. Hamre. With our support.
    Chairman Levin. Capable, with our support, of being in the 
lead, that are not now in the lead?
    John, let me repeat it. Are there not now a significant 
number of Iraqi forces, category 2, which means with our 
support, capable of being in the lead, that are not yet in the 
lead?
    Mr. Ramsey. Yes, I think we say yes.
    Chairman Levin. So do I, but is there some reluctance to 
say yes here this morning?
    General Jones. No reluctance. I think that there's a 
question of semantics here between what the chairman means by 
``lead'' and what we mean by ``capabilities.''
    Chairman Levin. Okay. I'm just saying category 2. You 
define it. That's your category, right? Are there not now a 
significant number of Iraqi forces that are category 2 forces 
that are not yet in the lead, that you believe should promptly 
be taking the lead--taking responsibility, assuming greater 
responsibility, in your words? Is that not clearly what you're 
saying?
    General Jones. We're saying that, at level 2, the unit is 
capable of planning, executing, and sustaining 
counterinsurgency operations, with ISF or coalition support.
    Chairman Levin. My question is, are there not now a 
significant number of category 2 Iraqi units that have not yet 
been put in the lead under those circumstances, under those 
conditions?
    General Jones. I'd have to defer to the Active-Duty 
military, who work with them every single day. My impression is 
that if an Iraqi unit is in the level 1, level 2 category, that 
they are conducting operations, and frequently in the lead.
    Chairman Levin. So, then--when you say that they're 
``increasingly capable of assuming greater responsibility''--
what you're saying is that all the category 2 units in Iraq 
have now assumed greater responsibility. Is that what you're 
saying? Or that they should assume greater responsibility?
    General Jones. That, in our judgment, if they reach this 
category, they are able to, with help, that they're 
increasingly able to take on more and more missions for the 
internal security of the country.
    Chairman Levin. I understand, and should, therefore, take 
on that responsibility?
    General Jones. Should take on that responsibility.
    Chairman Levin. Have you made an assessment as to how many 
of those category units have not yet taken on that 
responsibility? Have you made that assessment in your report?
    General Jones. No, I don't think we have.
    Chairman Levin. Okay.
    Senator Thune.
    Senator Thune. General, members of the Commission, we 
appreciate and thank you for your good work and your 
willingness to come up and present your findings.
    General Jones, I have a question dealing with the Interior 
Ministry, more with the police force than with the armed 
forces, but I know that the Commission was not specifically 
tasked to assess the capacity of the Iraqi ministries, even 
though you weren't specifically--tasked the Commission does 
address it. Since it is so integral to the development and the 
readiness and the capability of the ISFs, we appreciate your 
good work in that area.
    The Commission's report finds that, ``The ISFs, military 
and police, have made uneven progress.'' While the Iraqi armed 
forces, especially army, have shown clear evidence of 
developing the baseline infrastructure that lead to the 
successful formation of a national defense capability, the 
Iraqi police forces are hampered by--and this, again, a 
``corruption and dysfunction within the Ministry of Interior.'' 
The Ministry of Defense is assessed as being one of the better-
functioning agencies of the Iraqi government, and so my 
question is, what can be done to achieve the same level of 
success with the Ministry of Interior, since the Iraqi police 
force is so essential to the security and stability in Iraq?
    General Jones. Senator, thank you. I'll ask Chief Ramsey to 
respond to your question, as he did most of the work in this 
area.
    Mr. Ramsey. Thank you, Senator, for the question.
    I think there are a couple of things that can be done. 
We've talked a lot this morning about the military surge. As 
one of my colleagues, Terry Gainer, mentioned, we need a 
similar surge in policing, as well. We need more trainers. For 
example, we need to have an infusion of qualified people to 
assist the Ministry of Interior in developing the structure it 
needs to be more effective. We have to work very aggressively 
toward getting rid of some of the issues that really plague 
Ministry of Interior, which I think is the biggest reason why 
the police progress has been so uneven. The officers in the 
field are not getting the equipment that they need, they're not 
getting paid on a consistent basis.
    There is certainly the perception that sectarian issues are 
preventing a lot of these things from taking place. The 
National Police, for an example--85 percent Shia, 13 percent 
Sunni. I have never, in 38 years of policing, experienced a 
situation where there was so much negativity around any 
particular police force. It was unbelievable the amount of 
negative comments we got, whether we were speaking with Iraqi 
army, with Iraqi police service--it didn't seem to matter--
community members--there was almost a universal feeling that 
the National Police were highly sectarian, were corrupt, had 
been accused of having death squads and the like. A lot of that 
perception, I believe, is a carryover to a lot of the feelings 
that many had toward some of the issues in the Ministry of 
Interior.
    I think these are fixable problems, with the exception of 
the National Police. We do believe, in our recommendation, that 
the National Police be disbanded and reorganized with a 
different mission. Part of their problem is the fact that their 
mission has been unclear. It's not clear whether they're 
supposed to be a light infantry military type unit or a police 
unit. They're not very effective, because they lack the trust 
that they need in order to perform their jobs, either with 
their partners or with the community at large.
    The other police force, the Iraqi police service, I 
believe, can make very rapid progress once the problems with 
Ministry of Interior are addressed. The balance now, in terms 
of the Iraqi police service, using al Anbar province as an 
example, they are actively recruiting people into the police 
force, from the same ethnic background as the people that 
they're serving. That seems to be working very well. Sheikhs 
are very involved in trying to get recruits. The military, I 
think, that are working there, really understand and get it. 
They understand the importance of the police being able to get 
up to speed to be able to take over some of these 
responsibilities. When you go to the Kurdish region, certainly 
the same situation exists. They have a little bit of a 
headstart, obviously, because they haven't had the degree of 
violence that they've had in other provinces. But the police 
there are capable of being able to perform as a police force, 
and they don't have nearly the problems you see in other 
provinces.
    But it's the Ministry of Interior that is really holding 
back the police, in our opinion. I don't think there's any 
question, in my mind. I think that the National Police, it's 
beyond repair, even though I know there are people who don't 
agree with that. But we were unanimous in our assessment, as 
police leaders, that their mission needs to be redefined.
    Senator Thune. The challenges that the Iraqi government 
faces have been described as building an airplane while you're 
flying it--and, in this case, also getting shot at. But the 
question I have is, given those challenges facing the ISFs, is 
it possible to remove some of the sectarianism that you have 
talked about from the ranks without requiring a complete 
overhaul of the Iraqi police force?
    Mr. Ramsey. I think--with the Iraqi police service--and 
I'll approach these from two different standpoints, because I 
think the two groups are quite different--with the Iraqi police 
service, I think what you're starting to see now, at the 
provincial level, is recruiting of officers from that province 
that understand that community and that are trusted. You don't 
have nearly the problems that you have with the National Police 
forces being brought into different provinces, and you don't 
have the conflict that comes from that sort of thing taking 
place. So, with the Iraqi police service, I don't think that 
they are, for the most part, that far away from establishing 
themselves as a viable police force. Most of their problems, 
again, stem from their inability to get equipment, to be 
trained on a consistent basis, because, in some cases, the 
environment is such that trainers cannot get to academies in 
order to train; the vetting process that they're using is 
getting better, but has a long way to go, so they have been 
infiltrated by criminals, by militia, by insurgents. Even 
though, in many instances, we're seeing where that's being 
weeded out, still it is a serious problem. The National Police, 
on the other hand, I think, because of its composition and 
because of the opinion that many have toward the National 
Police, I don't think the same things can be effective. I think 
they need to have their mission redefined, and that's what 
we're recommending.
    Senator Thune. What's the feasibility of moving the Iraqi 
police force under the Defense Ministry?
    Mr. Ramsey. There's a couple of things that I personally--
and our syndicate--feel, and we're aware that that was a 
recommendation, but we're opposed to it, for a couple of 
reasons. One is that a civil police force ought to be overseen 
by civilians, not by military. I think that that's very 
important. I also think that one of the most critical factors 
is that, when you have the Ministry of Defense--and, although 
they're doing a lot better than the Ministry of Interior, 
they're still very fragile--to put that added burden on them 
could cause problems for them, in general. It also creates an 
imbalance, I believe, of power within Iraq, when you look at 
the military already being in the Ministry of Defense, and if 
you add police on top of that, that could cause some long-term 
problems.
    We have to find a way to get the Ministry of Interior up to 
speed. The Iraqi government has to fix the Ministry of 
Interior. Moving a problem from one ministry to another is not 
going to fix the problem. The baggage that the National Police 
are carrying is such now that it doesn't matter where you put 
them, they're not going to be trusted, they're going to be 
highly ineffective, because they don't have the trust of the 
people that they have to work with and the people that they 
have to serve.
    General Jones. Dr. Hamre would like to say a word.
    Dr. Hamre. The Ministry of Interior was captured, really, 
by the Shias as something to protect themselves, for fear of 
the rise of the Sunni again. Because the ministry is so 
dominated by Shia sectarian factions, it is impeding the 
development of a real police force. The law allows the local 
provinces to hire the cops, but only the Federal Government 
gives them money. It's this tension--this is like the State of 
South Dakota hiring policemen, but only Washington can give you 
a budget, and if you have party differences that they're using 
to try to leverage each other--that's what's going on. We have 
to fix that.
    If you were to move it over to the Ministry of Defense, it 
would be like adding a cup of vinegar to a barrel of wine. It 
would poison the whole barrel. We have to fix it.
    Senator Thune. Thank you.
    I see, Mr. Chairman, my time is expired. But thank you for 
your response.
    Senator Lieberman [presiding]. Thanks, Senator Thune.
    General Jones, thank you very much, and thanks to the 
members of the Commission. I think you've done an extraordinary 
piece of work here, and a real service in this debate, which is 
at a historic turning point, about Iraq.
    You were asked to do an independent report. It is 
independent. It's totally nonpolitical. I think that's what 
gives it its weight.
    As I was reading the press on it this morning, and 
listening to some of my colleagues, respectfully, this is the 
old story of, ``What you see is--depends on where you stand.'' 
This is not all good news, but, I must say, on balance, I find 
the report to be extremely encouraging. It wasn't so long ago 
that the testimony we had about the Iraqi military portrayed it 
as pretty much a rag-tag army, where, on the day that they got 
paid, they basically all went home, and stayed home for 2 or 3 
weeks, and then came back close to the next payday. I think 
you're showing us, also, that--when we asked how many of the 
units were rated at the levels 1 or 2, according to the metric 
we have, very few. Today, we can say that more than half--a 
good, sizable majority--are at that level.
    So, I'm encouraged about this, particularly--and I 
appreciate very much the metaphor that the report uses, where 
you say that building the ISFs in Iraq's exceedingly diverse 
and complex security environment is roughly akin to trying to 
build an airplane in midflight while being shot at. That sounds 
right to me, and that makes it all the more encouraging that 
the Iraqi military has made the progress it has.
    I want to ask you a few questions, consistent with that. 
Your report notes, ``noticeable improvements in the Iraqi 
army's ability to conduct counterinsurgency and 
counterterrorism operations,'' and, again, ``even when American 
units are absent, the Commission observed indications that 
Iraqis are taking the fight to the enemy.`''
    So, I ask you, is it accurate to say that the development 
of the Iraqi army, in your opinion, has made significant 
progress over the past 12 months, and will, in all likelihood, 
in your estimation, continue to make progress over the next 12 
months?
    General Jones. Senator, with your permission, I'd like to 
call General Abrams to the witness table for the answer to your 
question.
    Senator Lieberman. That would be a great honor.
    General Jones. He's done an awful lot of work on this 
particular issue and, we feel is well-qualified to represent 
the Commission.
    Senator Lieberman. Good to have you here, General Abrams.
    General Abrams. Good to see you again, sir.
    Senator Lieberman. You've been drafted again by General 
Jones on this occasion.
    General Abrams. These friendships go for a long time. Some 
days they're up, and some days they're down. [Laughter.]
    But it has been an honor to be a part of this.
    Just by way of introduction, most of us traveled, not 
through the staffs, but were able to talk to the people on the 
ground doing the work on both sides of this. I think General 
Jones and I came away with a shared experience in one incident, 
and it was this--presence of this Australian battle group in al 
Nasariyah. What I would share with you is, in terms of 
progress, what came to us is the confidence of our people that 
are embedded from the coalition, with these units. This was an 
environment where Shia-on-Shia battles were occurring. This 
province had been turned over--basically, had been provincial 
Iraqi controlled, and that you had, frankly, a U.S. presence 
and overwatch and both the political action team and an 
economic team directly involved in, not only the communities, 
but also the military structure.
    What we got out of the exchange is that, increasingly, the 
Australian battle group's view--who was charged with the 
responsibility to provide overwatch--was not only the ability 
of the army, but, in this specific instance, the ability of the 
police force and the army to work together, to develop 
intelligence on likely targets, to go after this very complex 
environment of Shia-on-Shia engagements, were able to sort that 
out. They did describe to us, in terms of limitations of 
logistics and fire support and the like.
    For what we took away from that model, if you will, that 
experience down there, this was what we considered to be a very 
difficult series of operations, done day and night over 
sustained periods of time. We saw evidence of this occurring in 
other areas, where the coalition was not in a dominant role. It 
was, in fact, in a support role. Those that had visited over 
there in the course of the last 3-plus years, that accompanied 
us and were a part of the Commission, felt confident that this 
was a new horizon of their ability to lead, to direct, and to 
engage in what were sophisticated operations.
    We found, as we traveled the hotly contested area in 
Baghdad, which, quite frankly, is where we saw the emergence of 
this--what the Commission is referring to as counterterrorist 
capability--we view that capability in terms of military-force 
application at the highest end and degree of difficulty to be 
able to pull off.
    The special operations units of the coalition referred to 
this brigade, in many instances, as an equal partner that had 
the ability to go into these neighborhoods, work on targets 
that were directly either al Qaeda or directly linked to 
providing sanctuary to al Qaeda, and do it at a comparable 
level. We found that to be a significant departure in the 
performance, not only of that brigade and its leadership, but 
the autonomy of the decisionmaking process that was outside of 
the coalition to be able to properly employ that. Those would 
be representative examples, that I would share with you on 
behalf of the Commission, that give indications that we 
witnessed, during our 3 weeks, a context of capability that, 
frankly, I think, has been borne out by the very difficult 
investments that have been made by our troops and our leaders.
    Senator Lieberman. Right.
    General Abrams. We were very confident by it.
    Senator Lieberman. General, I appreciate that firsthand 
recollection very much. It's powerful, and it's dramatically 
different than what we heard not so long ago. If I can ask the 
indulgence of Senator Webb, I just want to follow up with a 
quick question, building on that. One of the papers today had 
the headline on your report, ``ISFs Won't Be Ready for 12 to 18 
Months.'' In the report, you say, ``coalition forces could 
begin to be adjusted, realigned, and retasked as the army is 
able to take more responsibility for daily operations.'' Your 
specific conclusion is that, ``it is reasonable to believe that 
such adjustments could begin in early 2008, depending on the 
continuing rate of progress of the ISF''--in other words, not 
ordered by us, but depending on what the judgments are. I take 
it that the connection between those two--the fact that some 
people grabbed on to ``12 to 18 months'' and--to operate 
independently, and still you're raising the possibility that 
the Iraqis will be able to take on enough that we may be able 
to reassign or bring home some of our troops--is based on the 
fact that they don't have to operate independently to take on 
some of the responsibility that American coalition forces have 
now, as General Abrams just described. Do I have that right?
    General Jones. I think you do, Senator. I think you have 
that right. I would like to just leave it, in the mindset of 
people who are listening or watching, that there are two levels 
of progress here, at least from our Commission's standpoint. 
One is the capability of ISFs, which is the army and the police 
together, to take care of the internal problems--the violence, 
the crime, the sectarian problems, al Qaeda inside Iraq--and 
then there's the larger problem--or the second level of problem 
of the army coming into its full maturation of defending the 
borders of Iraq against nation-states outside of Iraq. That 
second level is where the Iraqi army will eventually get to. I 
believe that it's not realistic to expect that they could be 
there in 4 years, but, at the rate they're going, they're going 
to get there. So, what we're suggesting is, because of the 
increased ISF capability inside the country to take care of 
internal matters, recognize that's still significant, that 
there is a possibility to consider that other forces of the 
coalition could begin to pay a little bit more attention to the 
critical infrastructure and the borders, which are very porous 
and are significantly affecting the recovery, internally, in 
Iraq, as a result of the smuggling and----
    Senator Lieberman. I appreciate that, and--so that some of 
the ISFs, without being able to operate independently, 
nonetheless would be able to take on, in partnership with 
coalition forces, some of the responsibility the coalition 
forces have now.
    General Jones. Correct.
    Senator Lieberman. Thank you very much.
    Senator Bayh is next.
    Senator Webb. Unfortunately, when I indulged you, Senator 
Lieberman--I not only lost my place, but we have a 10-minute 
vote, and it appears that I'm going to have to go vote. If I 
may just make a quick statement.
    Senator Lieberman. Sorry. I apologize to you. I owe you 
one.
    Senator Webb. I wanted to be here to give my appreciation 
to the people who did this work. Unfortunately, you know the 
process, all of you, and this is an amendment that I'm actually 
a cosponsor of, I'm going to have to run down and vote on.
    As quickly as I can in the time that we have, I want to 
make sure, for my own understanding, that I am getting the data 
right on your report. In the executive summary, the ISF is 
defined as ``the military, the Iraqi police, and the Department 
of Border Enforcement.'' The last two, I assume, administered 
by the Ministry of Interior. Is that correct?
    General Jones. Correct.
    Senator Webb. The numbers that have been thrown around are 
152,000 military, 194,000 for the Department of Border 
Enforcement, and then, Chief Ramsey, you mentioned, I believe 
it was 230,000 police. Is that correct?
    Mr. Ramsey. As far as the police go, Senator, the 230,000 
refers to the Iraqi police service. There's another 25,000 
National Police in addition to that.
    Senator Webb. Okay. But those three are additive, right? 
So, if we put them together, that's a minimum of 576,000 
individuals counted in the ISF.
    General Jones. That's correct. In my opening remarks, I 
said 324,000 make up the totality of the police forces, the 
coast guard----
    Senator Webb. I have to run--when you're talking about the 
casualties in your report, and the percentage of those 
casualties, as measured against the Americans, what you 
basically are having--if you take that number and put it 
against even the top number in the surge, 3.6 times the 
American forces. So, what you're seeing still is probably--and 
also depending on where these casualties are taking place, 
because so many of them, as Chief Ramsey pointed out, have been 
police being knocked off in their local environments--that I 
would just submit that, in and of themselves, the casualty 
numbers do not indicate that the Iraqis are out in the same 
places and doing the kinds of things that the Americans are--
for the record, since I have to leave.
    General Jones. If you play the percentages and you accept 
that we're comparing the army of Iraq against the coalition, 
which is probably a fairer metric, simply because we don't have 
policemen over there, you could come up with different 
conclusions.
    Senator Webb. I would say, there are ways to----
    General Jones. There are different ways----
    Senator Webb. This has been used by your group.
    General Jones. Right.
    Senator Webb. That's why I think it needs to at least be 
put into some perspective, because even the Americans--they're 
a deployed force, but a huge percentage of the American force 
is in the logistical tail on this.
    General Jones. Exactly.
    Senator Webb. So, just for the record, I think the Iraqis 
still have a long way to go, in terms of the types of things 
you're talking about. I regret I don't have a full amount of 
time here to have a further discussion.
    General Jones. Thank you.
    Senator Webb. Thank you.
    Senator Sessions. Gentlemen, thank you very much for your 
insight and the time and effort you've given to this, and the 
expertise you bring to it.
    I believe General Petraeus's phrase was, when he testified 
before us before he went over to do the surge, he defined the 
challenge as difficult, but not impossible.
    General Jones, how would you see the long-term view of 
Iraq, just based on your commitment? I'll ask the others if you 
briefly would share your thoughts to the American people, is 
this a hopeless thing? What are our realistic prospects for a 
long-term situation in which there's some stability and a 
functioning government that's not threatening to the United 
States?
    General Jones. Senator, I think that General Petraeus's 
words were correct. I think it is a difficult situation, it's 
multifaceted. I think most of my colleagues have been involved 
in other situations like this, unfortunately, nationbuilding 
and reconstruction and the like. Generally, whether you look at 
Kosovo or Bosnia or other places like that, it's a generational 
problem, it's not a, necessarily, generationally military 
problem. But what we're looking for is that balance--or that 
moment in time when the balance goes from the big ``M'' in 
military to the big ``P'' in political reconstruction, and 
there's a handoff. We saw that in Bosnia, we've seen that in 
other places. But it is a generational problem. So, it's about 
bringing about, in Iraq, not only safe and secure conditions, 
but a completely different method of government, jumpstarting 
an economy, rule of law, the whole aspect of transition is just 
enormously complex.
    Regardless of how we got there, we are where we are. It is, 
strategically, enormously important, not only nationally, but 
regionally and globally, for this to come out to and be seen as 
a success. Our report is, I think, not only unanimous, but very 
hardhitting in certain areas, intentionally, to make the point 
that there are some good things happening, and we are all 
excited to see that's certainly encouraging--but that there's 
more work that needs to be done, and we wanted to be very 
specific about where it is we think that work should be done. 
It doesn't mean it can't be done.
    Senator Sessions. Did any of your Commission members, or 
any significant number of them, conclude that this could not 
work, it was a failed effort, and we just ought to figure a way 
to get out, regardless of the consequences?
    General Jones. I don't believe that there is a commissioner 
who feels that way.
    Senator Sessions. I think maybe a year or so ago, when so 
much bad news was occurring, that American people began to 
doubt that, could we be successful? Were we going to have a 
realistic chance? I think they will consider being supportive 
in the future if we can say, honestly, that, yes, it's 
difficult--and it is difficult, and I will admit that--and I 
think the biggest error we made is underestimating how hard it 
is to take a dysfunctional government and create a functioning 
government. That is a very difficult thing. If you look at 
history, it's been done very few times. Yes, Germany, and, yes, 
Japan, but those are hierarchical, unified societies in ways 
that Iraq is not, and had traditions of law and order that they 
didn't have, and it was just not quite the same, to compare 
Iraq to Germany or Japan.
    Chief Ramsey, I've been interested in the police situation 
for some time. I think being western as compared--the lack of 
prison space in Iraq to New York's prison system--I did the 
numbers, before that, for Alabama, and I concluded that Alabama 
has--with 4 million people, has 38,000 beds. I believe that now 
there's about 24,000 in Iraq. On a per-capita basis, that 
number, to be at Alabama's level, would be pushing 200,000. So, 
you've been a chief, you've dealt with police officers. What 
does it do to a police officer who goes out and arrests a no-
good criminal, and they turn him loose the next day? What does 
it do to the neighborhood and community if you can't detain 
people who need to be detained?
    Mr. Ramsey. Senator, let me just say that we did not look 
specifically at corrections while we were in Iraq. Terry Gainer 
and I did visit one location, where some prisoners were being 
held. We had an opportunity to talk to a few of them about 
their treatment and the like, but we did not really study that 
particular issue while we were in Iraq. The whole system needs 
to be reviewed, and we do mention that in our report, that it's 
not just the police, we do have to look at prosecution, we have 
to look at the judges, we have to look at corrections. You have 
to look at the entire criminal justice system and make it 
function properly if you hope to see any long-term gains and 
success.
    Senator Sessions. Which is hard to do.
    Mr. Ramsey. Very hard.
    Senator Sessions. Hard to be in a country that hasn't had a 
tradition of doing that correctly. I want to move away from 
that to ask you, next about the National Police. This is a very 
delicate thing. We solved it in the United States, 
historically. We have local sheriffs, we have local police 
chiefs, and we have Federal Bureau of Investigation and U.S. 
Marshals on the Federal side, and all of these things. But it's 
a mix. My time is about up, so I would just ask this question, 
the average policeman that's walking the beat in Baghdad, is 
paid for by the national government, but he answers to 
supervision that's local.
    Mr. Ramsey. Right.
    Senator Sessions. That's an odd way to maintain order. Dr. 
Hamre?
    Dr. Hamre. Yes, that's the central problem. That does not 
work. Our police force over here in the United States is paid 
for locally. Over there, all the money is coming from the 
Ministry of Interior. It's captured by the Shia militias. So, 
the money is not getting out to these provinces. Over half of 
their budget was left on the table last year, they didn't 
distribute it to the police. This is a problem.
    Senator Sessions. It's a difficult challenge for them, to 
walk a beat by yourself in an area where you and your family 
could be assassinated if you enforce the law. So, it's a 
challenge to the police.
    Thank you, Mr. Chairman.
    Chairman Levin [presiding]. Thank you very much, Senator 
Sessions.
    Senator Bayh, would you, if you're alone at the end of your 
questions, recess until we get back? There will be a few of us 
coming back. Thank you.
    Senator Bayh [presiding]. With the assistance of our able 
staff, I would be delighted to, Mr. Chairman.
    Gentlemen, thank you very much for your service and this 
report, and for your patience here today. Let me, at the 
outset, apologize if any of the questions that I am about to 
put to you have been asked previously, because I was absent, 
voting. So, if it is a little bit redundant, I apologize in 
advance for that. It's an occupational hazard in this line of 
work, when we have votes going on and hearings, simultaneously.
    In assessing the kind of forces and the configuration of 
forces necessary to achieve security in Iraq, of course you 
have to assess the kind of threats that they're facing, 
internally and externally. I'd just like to ask you, General, 
just very briefly--our intelligence services and other experts 
have indicated, publicly, that, in their opinion, 2 percent or 
fewer of the adversaries that we're facing in Iraq, and that 
the Iraqis are facing in Iraq, are foreign jihadis, are al 
Qaeda and Iraq affiliates, that 98 percent or more are Iraqis 
fighting amongst Iraqis over the future of Iraq. Is that 
consistent with your understanding?
    General Jones. I think we would agree with that. Let me ask 
General Berndt. Yes.
    Senator Bayh. You've offered a number of good opinions 
here, and a number of other opinions. Let me transition to a 
series of questions you had with Senator McCain and some 
others.
    You indicated it was your personal opinion, somewhat beyond 
the purview of the Commission, about the advisability of 
setting a deadline, timelines, that sort of thing. Your 
consensus is that political reconciliation among Iraqis is the 
key to long-term security. I think you used words, ``it may be 
more difficult, it may take longer,'' but, in essence, without 
that, this is probably never going to work out very well. Isn't 
that the bottom line? So, one of the questions we face is, 
what, if anything, can we do to promote the process of 
political reconciliation?
    General Jones. No, this is very important, and it certainly 
is going to make things much harder, and take much longer, 
without it.
    Senator Bayh. Indeed, security in that country, without 
political reconciliation, is probably not achievable.
    General Jones. Probably.
    Senator Bayh. Right. So, here's my question. We've pursued 
a strategy over the last 3 or 4 years of trying to build up the 
competence of the Iraqi political leadership so that they would 
be more likely to make the hard decisions, the tough 
compromises necessary to achieve political reconciliation. We 
felt that confident people were more likely to do that than 
insecure people. Doesn't seem to have worked real well. Your 
report indicates that that process is not going adequately. So, 
some of us have concluded that trying to force them in a better 
direction, with some notions of accountability, consequences 
for failure to act, some notions of timelines, that sort of 
thing, are more likely to make the process of political 
reconciliation come about than simply just saying, ``If you 
don't do it, that's okay, we're still with you, no 
consequences,'' which is what we've had for the last 3 or 4 
years. So, I'm interested in your opinion about why--I guess my 
own view would be--to continue enabling their dysfunction is 
the appropriate course of action? Why not accountability? Why 
not consequences? Why not some timelines?
    General Jones. Senator, you're correct, that's a little bit 
outside of the scope of our taskings, but----
    Senator Bayh. I'm only asking, because you offered your 
opinion.
    General Jones. I understand. I'll be happy to continue to 
develop that opinion.
    First of all, in terms of what we're trying to achieve 
here, what the coalition is trying to achieve in Iraq, is a 
long-term proposition. Three and 4 years, in terms of the 
magnitude of what we're trying not do--frequently 
simultaneously--building an army while it's being shot at, 
whatever metaphor you want to use--this is hard work, and it's 
going to take a long time.
    Iraqis, the citizens themselves and their government, are 
going to play an increasing role in this, and they're just 
getting used to what that means, I think. However it comes out 
in the long run, national reconciliation and putting an end to 
sectarian violence is one thing that has to happen. A decade 
ago, we were having similar discussions about----
    Senator Bayh. Should there be no consequences for their 
failure to act, where's the sense of urgency on their part? 
They're dithering while their country is in great distress.
    General Jones. Of course. A decade ago, we were having the 
same type of discussion about Bosnia and the ethnic killings 
and the murders and assassinations that were going on, and 
seemingly out of control. I think you're absolutely right, I 
think there should be consequences. I think it's up to 
coalition governments to express themselves in the way that 
only governments can. Certainly a commission can't do it, 
except to point out the fact that this is one of the hurdles 
and obstacles that is delaying the progress that we all think 
will be possible once you clear this hurdle. The fact that it 
hasn't been done yet doesn't mean it won't be done. I hope that 
it will be.
    Senator Bayh. I have a couple of other things I want to ask 
about. We all want to be successful, we all know that political 
reconciliation is essential to bringing that about. The debate 
that we're having is, what is most likely to encourage the 
Iraqis in that direction? It has seemed to some of us that the 
strategy we've pursued for 3 or 4 years hasn't born much fruit, 
and that perhaps a different approach is worth trying. That's 
the essence of what I'm trying to say.
    Here in your concluding section, which I thought was good 
and interesting--``Concluding Observations,'' under ``Strategic 
Shift''--you make the statement--``coalition forces could begin 
to be adjusted in early 2008.'' Now, there's a lot assumptions 
that underlie that. I'd like to ask you, what confidence level 
do you place in that assumption?
    General Jones. I think our Commission felt that, based on 
the measured and observable progress of the Iraqi army, in 
particular, and hopefully some of the accompanying progress by 
Iraqi police forces, that, if this continues on the current 
glide slope that we've seen, that the Iraqis will be able to 
take on more and more of the day-to-day responses to the 
internal----
    Senator Bayh. Would you say your confidence level is high, 
medium, or low?
    General Jones. I would say that it's high, that it's going 
to continue over the next 6 months to a year in a very positive 
direction.
    Senator Bayh. In a direction that would enable us to begin 
to adjust our troop levels?
    General Jones. That will give us some options with what we 
can do with our forces in a different way, yes, sir.
    Senator Bayh. That would be about contemporaneous with the 
spring estimate of--we're running up against the 15-month 
deployment period.
    General Jones. We said early 2008, but we'd certainly defer 
to the local commanders and authorities.
    Senator Bayh. The British have withdrawn substantial 
numbers of their forces from the south, and I was reading, 
recently, that they are basically withdrawing to their 
principal base there in the south. Now, it's different there. 
You have fighting among Shia groups, as opposed to Shia-Sunni 
fighting down there. But there are rivalries and so forth. What 
lessons, if any, can we learn from the British redeployment 
there, about the future of Iraq as we, according to your high-
confident assessment, may begin to also redeploy our forces in 
the springtime?
    General Jones. I think the overall lesson learned with 
regard to Iraq is there is no template that you can apply to 
Iraq and have it be valid for the region. The situation in the 
north is dramatically different from the south; the situation 
in the west and the east is also different; central Baghdad has 
its own dynamics.
    The thing that troubled us, as members of the Commission, 
was the degree to which Iranian influence is exerting itself in 
the southern part of the country. Four provinces in the south 
have been transferred to provincial Iraqi control, and we 
believe that that doesn't mean that you should not pay 
attention to those regions and be careful about what's going on 
there, because it is worrisome. But the Shia-on-Shia fighting 
is essentially a reflection of the fact that the majority of 
Iraqis seem to want an independent Iraqi, they don't want to be 
dominated by a neighboring country, and most of the Iraqis that 
we spoke to in that region said that they are going to take 
care of this problem, ultimately, themselves. I think that 
we're going to have to pay attention to the border questions, 
to make it more difficult for Iran to exert as much influence 
as it has in the internal affairs of Iraq in the coming years.
    Senator Bayh. Thank you gentlemen, I'm about to miss a 
vote. So, I apologize.
    Senator Collins.
    Senator Collins. General Jones, I want to talk to you about 
two different issues. The first is the recommendation in the 
report having to do with the National Police. I would welcome 
Chief Ramsey's comments on that, as well. When I first read 
your assessment of the National Police as, essentially, being 
ineffective, and the subsequent recommendation that it be 
disbanded, it brought to mind what I think was a disastrous 
policy decision to disband the Iraqi army in the early days of 
the war, thus creating a large number of trained, armed, 
alienated, and unemployed men who subsequently joined the 
insurgents or the militias. In talking to you before the 
hearing, I learned that that is not really an appropriate 
parallel.
    For the record, so that everyone has the benefit of the 
discussion that you and I had, could you or Chief Ramsey 
describe exactly what percentage of the police force you're 
talking about and the fact that the National Police is a 
smaller group among the security forces?
    Chief Ramsey?
    Mr. Ramsey. Yes, Senator. Thanks for raising that issue, 
because there is a lot of confusion around that particular 
recommendation.
    The National Police consists of about 25,000 members. The 
Iraqi police service has 230,000, roughly. So, it is not the 
entire police force that we're talking about. We're talking 
about a separate department that is significantly smaller than 
the Iraqi police service.
    We also are not talking about total disbandment, to the 
point where people are just going back out into provinces and 
become armed insurgents and all that sort of thing. We're 
talking about redefining their mission. We believe that there 
are many functions within policing that are highly specialized, 
require a great deal of skill and training, that the provincial 
police may not be able to sustain, long-term, such as explosive 
ordnance disposal or bomb squads, SWAT teams or emergency 
response teams, urban search-and-rescue, which in the United 
States is largely fire-centric, but, obviously, police could 
perform that particular function, river patrols, air support. 
All those kinds of functions could be performed by a group, 
national in scope. That's what we're recommending. Small groups 
in the provinces, but being controlled centrally.
    That would take about 6,000 people, roughly, maybe perhaps 
a few more, of the 25,000. The remaining people could go in 
either the army or to the Iraqi police service, where there's 
still help needed.
    Counterinsurgency is obviously very important in Iraq. For 
now, the National Police, that is probably one of their 
principal functions, as they are currently organized, which has 
led to a lot of issues, quite frankly. Last October they 
disbanded an entire brigade because of 26 Sunnis allegedly 
kidnapped, 7 of which were later murdered, and the National 
Police--or at least a brigade within the National Police--
believed to be responsible for that. Those are very serious 
allegations, and it's highly sectarian, and our sense was that, 
if they were given a real police mission--and right now, their 
mission is unclear, whether it be a military unit or a police 
unit--that that would solve a lot--or at least lessen--of the 
issues and problems surrounding the National Police.
    Senator Collins. Thank you.
    General Jones, the second issue I want to bring up with you 
concerns the transition to a new mission that you've described 
in your report. Your report suggests that coalition forces 
could begin to be adjusted, realigned, retasked as the Iraqi 
army becomes more and more capable. You look ahead to the first 
quarter of 2008, when this might be able to be accomplished. 
This is very similar, in many ways, to the new mission proposed 
by the Iraq Study Group and also proposed by Senator Nelson and 
I in a proposal where we've suggested that our troops focus on 
border security, counterterrorism operations, training and 
equipping of Iraqi troops, and protecting Americans and 
American infrastructure.
    My question for you is, how soon do you think we could 
begin that transition to a new mission for our troops? I'm not 
talking about setting a timetable or deadlines for withdrawal, 
but transitioning the mission, I believe, is important. I think 
we need to do that as soon as possible. Could you give us more 
guidance on when you believe the kind of realignment that you 
recommend could begin to take place?
    General Jones. Senator, thank you for that question. I 
would just simply say that such a transition is probably going 
to be incremental. It will not be a certain date, when the 
mission changes dramatically, but accomplished over time, 
depending on the situation, the capabilities of the units, the 
progress that we hope will continue to be made by the ISFs. But 
we saw some evidence, in some areas, that it has actually 
already started. General Abrams mentioned Nasariyah province, 
with the Australian brigade down there, and their relationship 
with the Iraqi police and the Iraqi army has already begun to 
show signs of instituting that kind of overwatch transition.
    So, I think it will be sequential, but our report suggested 
early 2008, but, really, the commanders on the ground can 
determine that, the transition of the mission.
    Dr. Hamre. I'd defer to my colleagues who studied the 
military mission more directly, but we recommended that we 
stand up a transition command that would help facilitate this 
very thing. I don't know if my colleagues would care to comment 
on it, but it's one of our recommendations, that we 
institutionally lead this with structure at the top, in a 
command.
    General Jones. I'm glad Secretary Hamre raised that issue. 
I believe we feel very strongly, as a Commission, that what is 
lacking in the briefing sets that one gets when you go to 
Baghdad is a sense of the center of mass of transition. You can 
get answers to a transitional question if you ask the military 
or if you ask the Justice Department or if you ask other 
aspects of the government, but you don't get a sense of 
transition being discussed, in the broad sense, in any one 
place. So, we recommended, as one of our suggestions, that such 
a place be established. It sends a good, clear intent of what 
we're there to do, and it also is a place where you can measure 
the progress that we're making with regard to transition. It 
goes beyond simply the police and the military. It would 
include legal reform, economic reform, unemployment, the 
services--political reforms that governments must go through, 
and how the ministries are working. Capturing all that in a 
center, so that people can see where we were a year ago, where 
we are today, and what the plan is for the future, we think is 
an important message to send forward, and that's why we made 
that recommendation. So, built into that would be the military 
aspect of it.
    Senator Collins. General?
    General Joulwan. In my view, what is needed for this 
transition is a political surge to match the military surge. 
That is beyond the scope of what--our soldiers and the Iraqi 
soldiers have provided an opportunity here for that to take 
place. How we do that is going to be very critical in the next 
4 to 6 months, and I think it's very important, at least from 
my view, that you understand that.
    Senator Collins. Thank you for your great work.
    Chairman Levin [presiding]. Thank you, Senator Collins.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    General Jones, I've been interested in violence in Iraq. 
The reason for that is, there's been some differences on 
reports, and even some dispute on those differences. In the 
Commission's report, it cites that there are signs of 
improvement in the security situation in Baghdad, based on 
reductions in the average number of daily attacks and the daily 
number of sectarian killings. Experts from the GAO, however, 
dispute the accuracy of those conclusions. The data that forms 
the basis for the military's conclusions have not been publicly 
released.
    General, did the Commission review of the data on violence 
independently arrive at the conclusion that the levels of 
violence have decreased? Or did it rely on the military's 
previous assessment of the levels of violence?
    General Jones. Senator, we relied on the data that we were 
provided by both Iraqi authorities and also our own authorities 
in Baghdad. We have no reason to doubt the validity of those 
figures. Clearly, anytime you inject 30,000 U.S. troops in a 
capital region that is, in this case Baghdad, you're going to 
affect the level of violence. It's going to go down, I 
guarantee it. The other participant in the surge was a 
significant number of Iraqi police and Iraqi troops in the same 
region, so, thankfully, that surge--that tactic did result in 
the numbers going down significantly.
    I can't swear to their absolute accuracy, down to the 
individual, but I'm certainly confident in--and the Commission 
is unanimous in--the feeling that it did have that effect.
    Senator Akaka. General, many of the Commission's 
recommendations rely on continued U.S. military presence in 
Iraq. The Commission's report states that the Iraqis would not 
be able to assume responsibility for their own security for the 
next 12 to 18 months. The Iraqi logistics organization has 
estimated to need even longer time to fully develop. We've 
heard differently on that, as well.
    General Jones, what kind of U.S. troop levels would be 
needed to provide the support recommended by the Commission? 
How long would those troop levels need to be sustained?
    General Jones. Senator, our mandate was to evaluate the 
capabilities of the ISFs and the likelihood of their continued 
progress over a defined period of time, and we did not get into 
the scope and the structure of U.S. forces, with the exception 
of coming to some conclusions that would suggest, as we said in 
our concluding remarks, that some sort of reassignment, 
remissioning, retasking of those forces would be possible as a 
result of the progress that the Iraqi army and the security 
forces are making. That was about as far as we could go in the 
90-day timeframe, without doing considerably more analysis. I 
presume that the military authorities that are presently 
executing the mission can give you a better answer than we can.
    General Joulwan. Can I just add, on that--which is a point 
I think we all agreed on. On the logistics side, for example, 
it was clear to us that there is an Iraqi way and then there's 
an American way. Many of us felt that we're trying to impose an 
American way on logistics and other areas, when an Iraqi way 
may be good enough. We mentioned that in the report, and I 
think we need to go back and look at that. We've mentioned that 
to the commanders on the ground, that perhaps the Iraqi way may 
suffice, and that may, indeed, in the long-term, work better.
    So, I wanted to bring that out, because I think that's 
important in our discussions as we consider the way ahead.
    Dr. Hamre. They have never failed to make payroll. When 
it's something important to them, they get it done.
    General Joulwan. We forget, they moved large corps on the 
battlefield in the 1980s--on a front wider than the central 
front of Europe in World War II, and they did that in the 
1980s. So, I think there's something here to go back and look 
at; is there an Iraqi way of doing this?
    Senator Akaka. Thank you for that.
    General, it appears that the longer our military has spent 
in Iraq, the more it is viewed by the Iraqis, and possibly by 
other countries in the region, as an undesirable occupation 
force, and culturally, as you just mentioned--that could be 
part of the reason.
    General, in the Commission's assessment of the security 
situation in Iraq, and in developing its recommendations, to 
what extent did the Commission consider the long-term effects 
of our presence in Iraq on the Iraqi citizens and how it might 
affect their cooperation with U.S. and coalition forces? What 
were the Commission's conclusions on that?
    General Jones. Senator, we did assess that, and our 
findings are contained in the last chapter of our report, which 
suggests that we should do a number of things to lessen the 
perception that we are, in fact, an occupying force. We believe 
that it is time to look at our footprint, it is time to look at 
the number of bases we have, our disposition, the number of 
forces, to make sure that we have the right number of personnel 
there, but not an excessive number, and that we are sensitive 
to the perceptions that, rather than being an expeditionary 
force, which is temporary, we might inadvertently be giving the 
impression that we are, in fact, an occupying force. We've made 
several recommendations to that effect. We believe that 
transferring control of all the provinces to the sovereign 
government would be a good thing. We believe that a transition 
headquarters would be a good thing. We believe that taking a 
look at our footprint, and reducing it, rescoping it wherever 
possible, would be a good thing. If you take all of those 
things together, it would lessen the image of the coalition 
being an occupying force.
    Senator Akaka. I know, as you pointed out, you particularly 
were dealing with the Iraqis. Is there any evidence that the 
Iraqis are sympathetic with the administration's claims that we 
have to fight terrorists over there and that we do not have to 
fight them here?
    General Jones. I think that we've seen evidence that, at 
least in certain parts of the country, they would feel that 
way. I think my overall personal conclusion is that I came over 
there with the fact that the Iraqis that we spoke to, be they 
Shia, Sunni, or Kurd, are desirous of an independent nation 
able to stand on its own. We think that there are some 
impediments to that happening, and some of them are internal, 
but we also believe that the destabilizing factors brought into 
play by Iran and Syria do play a significant role in this, as 
well.
    Senator Akaka. Thank you very much, General Jones.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    General, let me just echo what others have said, and that 
is to thank you, as well as all the members of the Commission, 
for the great work you've done. I can't think in my 13 years in 
Congress of a more important Commission than this group of 
individuals, nor a more important issue to consider than this 
particular issue. I commend all of you for taking the time, 
obviously giving it the great effort that you've given it, and 
we thank you for that.
    You touched on an issue in your opening comments, and you 
allude to it in your report, that has been pretty obvious to me 
from the start, at least when we began trying to train the 
Iraqi soldiers and the security police, and that's the issue of 
leadership. I've been concerned about parallels and the fact 
that we can take a young kid out of a high school in the United 
States and send him to Fort Jackson or Fort Benning or any of 
our training installations, and we make a soldier out of him 
pretty quickly, but we haven't been able to do that over there. 
In one of the early hearings that we had, I was told by one of 
your former colleagues that that was an issue that we were 
going to have to face, because these people had never been able 
to exhibit leadership. If they were under the rule of Saddam, 
if they showed some form of leadership or wanted to be a 
leader, unless they agreed with Saddam, they had their head cut 
off or their family was threatened, intimidated. I think, 
obviously, that has been the case, and it's been very difficult 
to get the gut feeling out of a large group of these folks to 
be able to develop themselves as leaders. I'm not sure how we 
do that, but I want you to expand on it.
    I was thinking, as you were introducing everybody from 
General King down to my buddy General Punaro that every one of 
these folks is a great leader in their own respect, and somehow 
we have to be able to develop that leadership within the 
grassroots of the Iraqi army, the security police, as well as 
the government side. I don't see it, and I'm wondering if 
there's anything I'm missing, or is there anything that we 
ought to be doing that we're not doing to try to move that ball 
down the field with respect to leadership?
    General Jones. Senator, thank you very much for that 
question.
    We were privileged to have as members of this Commission 
two very distinguished sergeants major, Sergeant Major Brown 
and Sergeant Major McMichael. With your permission, I'd like to 
ask Sergeant Major McMichael to come to the table and respond 
to that grassroots-level question about the basic Iraqi 
leadership at the NCO level that he observed. I think you'll be 
interested by his answer.
    Senator Chambliss. Sure.
    Sergeant McMichael. Good morning, sir, and thank you for 
the opportunity to respond to your question.
    It is obvious, with our assessment and having the 
opportunity to observe the Iraqi NCO corps, that they have a 
great need for an effective NCO corps, and that will take them 
down to the grassroots. The problem is the ability to allow 
them to be properly trained. As we had the ability to, and the 
opportunity to, observe their academies and their training--
entry-level training--we have great training facilities and 
great teams there that are providing the training. The problem 
is that they have to be able to understand the training, and we 
have to adjust the training to their level. As we have said 
here on the panel earlier today, it is not a U.S. model, it is 
not a NATO model, it is the right model. We're trying to 
provide them with that.
    We have seen that they are grasping the training. Without 
the NCO piece, it would be very difficult to have a military 
that has the cohesion or the effectiveness not only to respond 
to orders, but to follow them effectively.
    We have to understand that the NCO corps that we have in 
our great military, in our great country today, did not happen 
overnight. It took a while to build what we now know as 
sergeants majors or chief master sergeants or master chiefs. 
They did not develop in a microwave effect, of ``pop it in, and 
they popped out.'' They grew from the grassroots up. They have 
to have that same opportunity. But, in growing their NCOs, they 
also have to have the ability to train their officer corps 
along with it to accept this new entity that their NCOs will 
bring to the table. To train the NCO to be effective, and then 
put them back into the forces and not allow them to do what 
they've been trained, will allow no progress whatsoever.
    Senator Chambliss. Do you have confidence that that can be 
done in the short-term, versus long-term?
    Sergeant McMichael. I have confidence, sir, that it can be 
done. The terms of effectiveness will be how effective we are 
providing the training and their willingness to accept it. To 
put a timeline on it will actually not be able to mirror what 
we are confident of what we do every day, because we come from 
a great educational background and system. Many of their 
individuals in their military have a fourth-grade education. 
That does not indicate that they're not intelligent enough to 
grasp it, because if we observe their training, both in weapon 
training and other small-unit-level training, they had no 
remedial courses. To me, that meant that they were grasping the 
training and the information as it was provided for them.
    Senator Chambliss. Gentlemen, again, thank you very much 
for a job well done, once again, we appreciate it.
    General Jones. Senator, if I could just piggyback on the 
Sergeant Major a little bit, at the officer level, we are very 
much watching the development of the next generation of Iraqi 
officers. Frankly, this will be no surprise, but the younger 
officers really get it, but they're going to have to wait their 
turn, although it'll probably be accelerated as the older 
generation moves out. But this is the generation that is going 
to make the difference in Iraq. On that score, we were pretty 
optimistic by what we saw.
    Senator Chambliss. Good. Thank you.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, not only for your work on this 
Commission, but for your lifetime service to the Nation in many 
different capacities.
    General Jones, General Joulwan, you probably know as much 
about the force structure of the Army and the Marine Corps as 
anyone, and my understanding is that, given our present force 
structure, unless we take draconian steps to increase 
deployment times overseas, that by next April the surge, the 
additional 30,000 troops, approximately, will end. Is that a 
fear? Or is that your understanding?
    General Jones. My understanding is that there will be a 
point when the surge will end, yes sir.
    Senator Reed. Roughly next spring?
    General Jones. I think it's forecasted for that, but I 
don't know, exactly.
    Senator Reed. So, in one sense, really, reducing the forces 
is not an option, it's a reality. The question, I think, is, 
when is that date? Is it March? Is it April? Is it June? Is it 
May? Which raises, I think, one of the more fundamental 
questions here. The increase in forces would justify a mission 
of population control. Those forces go away next year sometime. 
So, what are the missions that a smaller force cannot only 
support, but would be more central to our interest in Iraq? 
General Jones, General Joulwan, do you have any thoughts?
    General Jones. We've suggested that assuming the continuing 
rate of progress in the Iraqi army, and a renewed effort with 
regard to the police forces, which would result in being able 
to handle the internal threats to the country, and hopefully, 
some evidence of national reconciliation that diminishes 
sectarian violence, then the rate of progress can be enhanced.
    But, having said that, with regard to what's going on right 
now, the rate of progress in the Iraqi army seems to be 
improving to the point that we can consider, not only alternate 
missions, but alternate force structures to take on some of the 
things that are not being done very well, and that is the 
territorial defense, the border defense, the critical 
infrastructures of the country upon which the government relies 
on for its popularity--electricity, water, all kinds of 
services. So, we think that, assuming a steady rate of 
progress, that the coalition, over time, could be retasked 
towards that mission, and that would mean new numbers and new 
capabilities; hopefully, fewer.
    General Joulwan. Senator, implicit in your question was, 
somehow we may have time, early 2008, to the issue of, will the 
troop deployments, because stretched thin or not, they're not--
at least my standpoint, that was not our intent. We based that 
on what we saw in development, in our professional judgment. I 
want to make that clear, that I think it's important here that 
we see tactical success. How we build the strategy now to build 
on that strategy is key, and we think, going to a strategic 
shift of some sort, we can see possible reductions next year.
    Senator Reed. This is where you sit is what you're seeing, 
basically, and I understand, your mission was to evaluate the 
ISF, to see what progress--independent of any other factor. 
But, at the same time--and I think we're all aware of this--
there are huge strains on the land forces--on Army and the 
Marine Corps--and that--everything I have heard, from the 
people that I respect and admire and were being quite 
forthright, are indicating that, by next spring, unless you 
increase the deployment time to 18 months, call up Reserve and/
or National Guard units at a much more accelerated rate, then 
this surge will end. Essentially, that's what General Petraeus 
told me in Baghdad about a month ago. So, I think we have to be 
realistic about what happens. Regardless of the progress of 
your folks on the ground, our troops are coming down. What are 
the missions?
    But let me ask you, a different way, something I think is 
critical. This is not central to your mission, but you were 
there, you have a sense of it, I think, and you have great 
expertise.
    The real question here, I think, is, when those troops come 
down--April, May, June--how reversible are the tactical 
successes that we're seeing today on the ground? Where is the 
force that's going to come in and replace them? Where is the 
political coherence and the political infrastructure that will 
build on these gains? How long will it take--and we've seen 
this repeatedly--as our forces are drawn down--necessarily, by 
the force-structure constraints--will it take for the 
insurgents to begin to backfill, to begin to express theirself?
    General Jones. The rate of progress that's forecast for the 
Iraqi army is to grow to 13 divisions in 2008, from the 10 that 
they have now. So, assuming they're able to do that--and we see 
no reason to believe that they can't--manpower is available, 
the volunteers are standing in line to join, the training bases 
are established, the schools are up and operating, the 
equipment is in the pipeline--they should be able to grow to 13 
divisions, and that's 3 more than they have now, and they'll be 
tested, and they'll be taking over more and more of that 
internal security. Under that scenario, that ultimate reduction 
of our forces is commensurate with the increase in theirs, and 
that's the challenge the commanders would have to face.
    Senator Reed. So, you don't anticipate at least a temporary 
period of time in which our force is drawn down, the Iraqis 
forces that you've looked at closely, are getting up to a level 
of expertise, but a gap in which, once again, the insurgents 
can exploit a decrease in our forces and the inability of the 
ISF? You don't anticipate that at all?
    General Joulwan. I think you always have to anticipate 
different options, but if we see the continued improvement that 
we've seen on the ground during our visits, if we can speed up 
the foreign military sales, the equipment, they have $2 or $3 
billion in the bank in New York ready to buy things that's 
plugged up. That's our problem, not their problem. So, if we 
give them the means, there may be substantial improvement by 
next spring in the ISFs, particularly the army. We ought to 
say, how can we facilitate that--stay out of the political side 
of it, but, how can we facilitate that? That's incumbent upon a 
lot of folks here in Washington. But I think there's 
opportunity here. I think we ought to try to see if we can 
capitalize on it.
    Senator Reed. My time's expired. I think, as you pointed 
out, the resources are growing, there are resources we have to 
provide. Particularly, this foreign military sales issue is, to 
me, a disaster. We've known about it for a year, we can't get 
equipment to them they pay for. But the real question which 
resonates throughout your report and throughout your testimony 
today is--do the Iraqi people have the will to do these things? 
Frankly, after 4 years--I would poll you individually, but my 
time's expired--that's a highly debatable point.
    Thank you, Mr. Chairman.
    General Jones. Senator, if I could respond to that, though, 
because I think that's an important thing.
    One of the things that the Commission did is, we actually 
took a poll of the Multinational Force commanders, all eight 
commanders, and we asked General Petraeus to do this for us. 
It's a poll that is unsigned, but we asked some interesting 
questions, and I'd like to share some of the responses. These 
are the most senior commanders on the ground--eight, 
representing the coalition.
    The assessment of the progress that has been made by the 
ISFs towards attaining the capabilities required to protect the 
territorial integrity of Iraq. The choices were: excellent, 
satisfactory, or unsatisfactory. Within the MOD, six responded 
``satisfactory,'' and only two ``unsatisfactory.''
    With regard to attaining the capabilities required to deny 
international terrorist safe havens: seven ``satisfactory,'' 
one ``unsatisfactory.''
    Assessing what progress has been made by ISFs towards 
attaining capabilities required to bring greater security to 
the province in your area of operations: seven 
``satisfactory,'' zero ``unsatisfactory,'' one ``not 
applicable,'' for some reason.
    Assessment of the progress that had been made by ISFs 
towards ending sectarian violence and achieving national 
reconciliation--this is, again, the Army, only--six 
``satisfactory,'' two ``unsatisfactory.''
    Ethnic composition of sectarian and its impact on 
performance: two ``moderate,'' five ``negligibly.''
    Capabilities required to significantly enhance independent 
direct combat operations against the al Qaeda and other forces 
hostile to the government of Iraq--choices: 12 to 18 months, 18 
to 36, or more than 36--three said ``12 to 18 months,'' four 
said, ``18 to 36,'' and one said ``more than 36.''
    Finally, the assessment of the progress that has been made 
by ISF towards creating the administrative, financial, 
training, and other institutions needed to sustain the force: 
``satisfactory,'' four, ``unsatisfactory,'' three.
    So, just to give you a flavor that--the response to these 
questions--very important--by the people--by the commanders who 
are actually running the Multinational Forces on the day-to-day 
basis, working with the Iraqis. The trend lines are favorable, 
and I think this is a meaningful finding.
    Senator Reed. My time's expired, but, again, gentlemen, 
thank you for your service and your comments.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I also want to add my thanks to your service. The panel has 
provided us a lot of insight. I'm sorry if I'm asking questions 
already asked. That's the way the Senate is. That's the price 
you pay to come here, I guess.
    The old strategy, as I understood it, was: keep the 
military footprint fairly low, train, transfer power, and 
leave. It seems to me that the insurgents benefited from that 
old strategy, because they grew in power and influence. Is that 
a fair statement about what we did before the surge? Did we 
have enough troops? Did we make a fundamental mistake after the 
fall of Baghdad I guess is what I'm asking?
    General Jones. This Commission started on a certain day, 
and we didn't visit the details of the past. But, obviously, I 
think, if you polled each one of us, we'd all have our own 
opinions, but certainly everything didn't go quite the way we 
visualized it collectively. But I think our consensus is that, 
regardless of what may have happened in the past, that there's 
some indications that things are moving in the right direction 
in some quarters, and that's encouraging. That's the first bit 
of, I think, positive news that I think that we've heard in a 
long time.
    Senator Graham. General?
    General Joulwan. Personally, I think that you're correct. 
If we had it to do over again, I think the planning would have 
been different, that what we would try to do is create a secure 
environment after Baghdad fell, and we didn't. But we are where 
we are. I think what we're doing now is trying to assess where 
we are, what we can recommend for the future.
    Senator Graham. For what it's worth, my assumptions were 
wrong. It's okay to say that around here. I thought it would 
be, after the fall of Baghdad, that the model we had would 
work. But it was pretty clear to me, after about 6 months, it 
was going in the wrong direction. After about 3 years, it was 
crystal clear we were going nowhere fast. So, the new strategy 
seems to have paid some dividends.
    Rather than talking about just all the good news here from 
our side--the police have always worried me. I was there for 
the election, and I came back to the White House with Senator 
Biden, Senator Chambliss and--four of us went over. The one 
thing that struck me was how the Iraqi army viewed the police. 
The Iraqi army did not have a very high opinion of the police. 
I have been over there eight times now, and I think the 
Ministry of Interior is one of the most sectarian groups--maybe 
this new guy is making improvements. Do you see any 
improvements on his watch in terms of firing some of the 
battalion commanders?
    General Jones. We've noticed the recent actions. Our report 
is fairly critical of the Ministry of the Interior and 
everything that flows from that ministry. So, the ability of 
the ministries to work together is virtually nonexistent.
    You're right, police and and military didn't work together.
    Senator Graham. I think you're dead-on. I've been saying 
that in different capacities--when you sit down--done a little 
legal work over there, and you're sitting across the table with 
some Ministry of Interior folks, they just don't give you a 
warm, fuzzy feeling about--the judges are different. Did you 
spend any time with the judiciary?
    General Jones. Unfortunately, we did not.
    Senator Graham. Did you get to go to the Rule of Law Green 
Zone, by any chance?
    General Jones. Yes, we did.
    Senator Graham. Okay. That's a compound where they're 
trying to secure the judges, and I think hats off to General 
Petraeus there.
    Why is the Ministry of Interior so different?
    Dr. Hamre. You have to remember the election, the Sunnis 
sat out the election. So, the people that really helped 
populate the first part of the government were the Shia. The 
Shia have felt victimized by the Sunni for years. So, they 
looked at the Ministry of Interior as a bulwark of support for 
them, for fear of the rise----
    Senator Graham. Why not the army? Why didn't they look at 
the army the same way?
    Dr. Hamre. They didn't. I can't explain that. They 
basically turned the National Police into a praetorian guard. 
It is a Shia praetorian guard.
    Senator Graham. Is there something about the army that's 
different, in terms of its command structure or history, what 
do you think, General? I think that's an important question. 
Why not the army? Why the police?
    General Joulwan. Senator, I watched this from my work for 
the Chairman of the Joint Chiefs in the 1980s, where the Iran-
Iraq War was fought on--as mentioned earlier--a very large 
frontage, and they were Iraqis fighting Iranians. They were 
Sunni, Shia, Kurds. There is a national identity here. As I 
mentioned when we talked to commanders from the Minister of 
Defense on down, and I said, ``Are you a Sunni, a Shia''--he 
said, ``I'm an Iraqi.'' So, I think within the armed forces--
the army, in particular--there is this identity. I think we 
need to build on it. That's, at least, the point we're trying 
to point out.
    Senator Graham. Do you have any confidence that the 
Minister of Interior that they have now will turn this around?
    Dr. Hamre. He doesn't go to the ministry.
    Senator Graham. Let me just do a poll. Does anyone thing 
the guy in charge now can turn it around--has the desire to 
turn it around?
    General Jones. I think he should be given credit what he's 
already done. But he certainly has not had enough time to 
either say he will or he won't. But there's no doubt in our 
minds that it has to be done. It's not negotiable.
    Senator Graham. So, this guy, in your opinion, could do it. 
He has the willingness to try?
    General Jones. The actions that he took to take out a 
significant number of leaders because they were sectarian, and 
the fact that it happened, is encouraging, but there's an awful 
lot that needs to be done.
    Senator Graham. Thank you.
    General Joulwan. Senator, there was a great comment made to 
me, that the Sunnis know that they have lost, the Shias haven't 
realized they've won.
    Senator Graham. Yes, I think that's pretty true. I'll just 
end on this thought. One of the things that strikes me very 
disturbing is that there are a lot of Sunnis that are qualified 
to join the police, they just can't get hired.
    General Jones. That's correct.
    Senator Graham. All over Baghdad, when I was there doing 
some Reserve duty, working on rule-of-law issues, there's 1,700 
qualified Sunni police candidates who have been vetted by us, 
in parts of Baghdad that are out of control, that could really 
make a difference, and we can't get the government to hire 
them. Did you find that to be a problem?
    General Jones. Yes, we did find that.
    Mr. Ramsey. Yes. Senator, when we took a look at the 
police, we did see that as a serious issue. There's really no 
reason why that's not taking place. The National Police, in 
particular, 85 percent Shia, only 13 percent Sunni. Most of the 
problems lie right there with the National Police. Not to say 
that the others aren't having some issues, but most of the real 
criticism and problems are really with the National Police. 
That has to change.
    The other point that you made earlier that I think is a 
difference between the army and the police, the police are 
basically being led by former military leaders that don't have 
a background in civil policing. Whereas, the coalition has 
done, I think, a remarkable job of putting quality training 
together, doing the best they can to really try to bring people 
up to speed, it takes time to really understand to operate as a 
police force in a different where you do have a rule of law. It 
is just totally foreign to them, and it's difficult, and it's 
going to take a little time before they're able to really, I 
think, be effective. With the National Police, they're under 
strength in their officer corps by about 45 percent. So, 
command and control becomes an issue. So, there's just a lot of 
issues and problems that are impacting the police, and that's 
not even talking about the dysfunction of the Ministry of 
Interior, which is, I think, the overriding problem that they 
have. But all those things, combined, are just retarding the 
growth of both the Iraqi police service and, certainly, the 
National Police, with their other problems.
    Dr. Hamre. Sir, and the revenues come through the Ministry 
of Interior to all the police, and that's the central problem.
    Chairman Levin. Thank you, Senator Graham.
    Senator Graham. Thank you very much.
    Chairman Levin. Senator Corker.
    Senator Corker: Yes, sir, Mr. Chairman.
    I want to echo the comments made when this hearing began. 
We are all honored that you are here, and deeply appreciative 
of the service you've provided, both in the past and today.
    I've prided myself on never asking a question that's 
already been asked. I'm not sure I can do that today, the way 
this hearing has gone, with votes in between. I'm sure this 
actually has been asked. But, when I left the hearing, there 
was discussion about the border and discussion about some of 
the basic equipment necessary to secure the border, especially 
between Iraq and Iran.
    I've been in General Odierno's office twice this year, and, 
on his cocktail table in his office, he has there a lot of 
Iranian arms, if you will, that have come in from there, and 
it's basically on display so that everyone who comes into his 
office knows that arms, if you will, are coming into Iraq from 
Iran, which, obviously, everybody thinks is a big, big issue. 
Could you expand a little bit on the border issue? It just 
seems so elementary, especially when it relates to the 
equipment pieces. We're spending $10 billion a month. I know I 
had conversations with General Hadley early on about making 
sure General McCaffrey had been before us, in the Foreign 
Relations Committee, talking about the lack of expenditures on 
equipment, the fact that if we'd just spend some basic dollars 
on equipment, we could really lessen the effort, if you will, 
that we were having to do by our own men, militarily, because 
we'd be giving them the equipment to do the things they need to 
do. I wondered if you could just expand on that a little bit, 
and I apologize, I'm sure somebody else has asked that 
question.
    General Jones. Glad to do it, Senator. If I could, I'd like 
to call on Admiral Johnson, who also spent time on the border--
General Berndt is also our expert--but to give Admiral Johnson 
a chance to respond to that very important question.
    Admiral Johnson. Thank you, Senator.
    Indeed, we have gone over some of this ground before. Fact 
of the matter is, we got a late start on border security force. 
It's only been in the last year to 18 months that we've given 
it a fairly serious effort to help them establish a security 
force.
    It's under the leadership of the Ministry of Interior, and, 
as has been discussed previously, that's one of the more 
ineffective ministries we have in the Iraqi government.
    The force is some 37,000. They are making progress. They 
seem very eager. We visited three different border-crossing 
facilities. I visited one on the Iranian border. General Berndt 
visited one on the Jordanian border and one on the Syrian 
border. All the forces were eager. But there's no standard 
operating procedure, they have a very rudimentary capability. 
They don't have modern-day equipment that can examine cargo, 
such as backscatter arrays that can look inside of cargo vans. 
There were five of them at the Iranian site that we visited, 
none of them worked. They don't have the more modern gamma-ray 
facilities. They didn't even have cranes or forklifts that 
would lift cargo off so they could examine it.
    Furthermore, this is the primary Iranian-Iraqi border 
crossing, and, since the war began, the Iranians made the 
trans-shipment point on their side of the border, put up berms 
and walls so the Iraqi trucks go over to the Iranian side of 
the border, behind this berm, transload the equipment or 
whatever the goods and services are that are being imported 
into Iraq--onto Iraqi trucks, no one sees what takes place 
there or what transpires. They drive over to the Iraqi side. We 
witnessed a few people crawling over the trucks, maybe looking 
into them, looking at whatever manifest the driver might have, 
but that was the extent of the effort taking place there. That 
was all the capability they had.
    So, we have a long way to go in this area.
    Senator Corker. We've been training servicemen now for 3 or 
4 years. This is one of those things that you would think you 
could solve in a week or 2 weeks. This is infuriating to know 
that this is happening, and that, truly, I think that two of 
you, with a few folks--one of you, probably, with a few folks--
could figure out a way to solve this problem, like, yesterday. 
Is that simplifying this thing?
    Admiral Johnson. It probably is simplifying, a little bit. 
I think that there could be a much greater sense of urgency in 
this particular area, and it would have some impact. But this 
is a very long border. It's roughly equal to what we have with 
Mexico in the United States. So, even if you had better 
equipment at the border crossing points, to be able to zip up 
the border is a monumental task.
    What General Jones has referred to, maybe, as transition 
takes place in the coming months, we could help and exert a 
greater effort in this particular area, which is of a strategic 
importance to us to tighten up that border. But they need a lot 
more training. They need standard operating procedures--and 
they need more modern and technical equipment. The Personal 
Identification Secure Comparison and Evaluation System 
(PISCES), there's no real list of who should be allowed into 
the country. Many of the passports that are used are not 
scanable passports anyway, even if they had a PICSES site 
system and they had electrical power to run it. So, there are 
some rather significant challenges there.
    Senator Corker. I know a big part of the problem is that 
people are coming and going, and that's something that's very 
difficult to contend with. We have the same problem here in our 
own country, and has been around for a long time.
    Admiral Johnson. We were reminded of that frequently.
    Senator Corker. Yes. The issue, though, of equipment coming 
and going, of arms coming and going, seems to me to be 
something far simpler to resolve. You don't have to have 
documents to know that there are explosive devices on the back 
of a truck. Could you speak to the order of magnitude of that 
problem, as it relates to affecting us in a negative way in 
what we're doing in Iraq itself--the order of magnitude of 
those arms, those munitions, those weapons coming across the 
Iraqi border into their country?
    Admiral Johnson. I think the display on General Odierno's 
table there in his office speaks to that. The stuff comes every 
day. I haven't even begun to talk about the sea border, which 
is also very porous, particularly down in the Basrah area, 
where it's controlled by Shia militia. So, I'm not saying that 
we can't make progress, and we can make a dent in it, but to be 
able to zip up that border so that stuff can't get in, I think, 
is nearly impossible. So, what you're going to have to do is 
internally take away the ability of people who are so inclined 
not to be able to use that stuff. I think that that's the 
approach we need to take, at the same time we continue to build 
up the capacity of the border security force and 
professionalize them. There's also the whole issue of 
corruption, which we haven't discussed, which is very severe in 
this particular area of government capacity.
    Senator Corker. Mr. Chairman, thank you.
    Chairman Levin. Senator Corker, thank you so much.
    Senator Warner.
    Senator Warner. Thank you very much. Thank you, Mr. 
Chairman.
    Gentlemen, I think you should depart with the sense of 
mission accomplished here, if I can use that phrase, in terms 
of--you've fulfilled the charter that Congress specified, in my 
judgment, and you did it admirably, individually and 
collectively. I thank you.
    General Jones. Thank you.
    Senator Warner. But, as I look at the future, there's an 
awesome decision that has to be made by our President, under 
his constitutional authority as Commander in Chief, as to what 
changes should be made in our strategy as we look at the 
future. Certainly, we've covered, clearly, the troop 
requirements and how the leading will begin to fall if we 
maintain the current deployment, which I rigidly would adhere 
to, no deviation in the current length of time these able 
soldiers, sailors, airmen, and marines are serving.
    Anyway, back to my point--and then you look at General 
Petraeus. I was trying to think of the parallels in history 
when a single officer has had to make a decision that is so 
determining of the future, not only of this military operation 
in Iraq, but the determination of the future of our Nation's 
status in that region, our credibility, our ability to deal 
with Iran in nuclear power, in nuclear weapons as they're 
dealing with, and all of the other decisions. So, we're at a 
very major pivotal point in this conflict. I think back to 
Eisenhower, trying to struggle with the decision of when and 
how we would initiate Operation Overlord to go into Europe with 
our forces. It really is extraordinary. I join with you and 
others, saying that I think that General Petraeus can make 
that.
    But strategy of the future, it seems to me, can no longer 
be based on a predicate of the reconciliation that you've 
emphasized from the top on down. I see no signs of that coming 
into place in a timely or an effective manner to really begin 
to affect this strategy. It'll be a missing component of the 
decisionmaking. That's why I'm drawn to your recommendation, on 
pages 130 and 131, about provincial Iraqi control--since it's 
not functioning at the top, at least give the provinces the 
measure of autonomy under the existing constitution in Iraq to 
govern and do things for themselves. You say, ``For the sake of 
Iraqi sovereignty, and to lessen the perception that we are 
occupiers, all provinces should be transferred to Iraqi control 
immediately.'' That's a very profound finding, and I support 
that.
    I'm interested, what reaction did you get from the 
administration, particularly General Petraeus and others, when 
you brought forth that recommendation?
    General Jones. Senator, we did touch on that in our 
briefings, and it was received with interest and, I think, the 
seriousness with which something like that should be 
considered. I think it's being discussed in various centers at 
DOD and the National Security Council (NSC).
    Senator Warner. All right. I think that's sufficient. They 
took it, did not reject it.
    General Jones. Took it.
    Senator Warner. My last question would be, in your report, 
you talk about transferring our forces to perform critical 
infrastructure security. That translates into the very basic 
needs of water, removal of sewage, electricity, all of those 
things by which the average Iraqi citizen can judge that his 
nation is moving forward or remains basically stagnant, as it 
is now. All these years, all of the investment that this 
country has made into trying to bring up those essential 
services for decency of living and existence have not 
materialized. Now, how would we undertake that security 
operation differently than what we have to assume is the 
ineffective security now being provided by a combination of 
whatever coalition forces and Iraqi forces is taking place? How 
would we go about augmenting that such that electricity and 
water and sanitation and other essentials can be given equally 
to the Iraqi citizens, no matter where they live?
    General Jones. Senator, as the ISFs become more able, 
obviously the result of that would be that they would take on 
more of the problems associated with the internal security 
threats that we currently experience. Having more troops 
available means that some of the other issues that we have not 
been able to devote, as much as we would like to have done, to 
that aspect of external security and assuring the safety and 
security of the most critical infrastructures of the country, 
could be accomplished.
    Senator Warner. By our forces as they transition from 
overwatch----
    General Jones. Could be as part of the strategic----
    Senator Warner. Right.
    What would we do differently than is being done today? Is 
it just the size of the forces, the technology we would bring, 
the equipment?
    General Jones. I think it's the availability of forces to 
do those kinds of things. I think Admiral Johnson and General 
Berndt spoke about the critical situation along the borders. 
That's one aspect of it. Obviously, if terrorists can keep 
impeding the flow of progress, in terms of electricity and 
water and other basic elements of life, that is very 
destabilizing and contrary to our mission. So, as you get more 
mass and more capability, we can do more of these things. That 
will help, certainly, turn the attitude of the average Iraqi 
citizen, in support not only of the coalition, but in support 
of his own government.
    Senator Warner. I thank the witness.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Senator Sessions.
    Senator Sessions. Thank you.
    This is the beginning of an important fall discussion 
dealing with the commitment we've made in Iraq, what we're 
going to do, what our level of commitment will be, and what the 
prospects are for success. I thank you very much for your 
wisdom and mature judgment on these issues.
    I take away a few things. One, that the situation is not 
hopeless. I think some of our constituents may have just felt 
like throwing up their hands, and, ``There's no way we're going 
to be successful.'' I do not believe that, and I'm pleased that 
you do not, because a failure would be a very bad thing for our 
country, as you note in the report.
    I think it's important--General Jones, you noted that--you 
conclude that the Iraqi people do want a unified Iraqi 
government. They would like that as a goal. I think that's 
important, fundamentally, as to whether or not we can be 
successful. You've noted it would take a long time. I just want 
to pursue that a little bit. I agree, it's going to take a long 
time to have an established government here. But that does not 
mean, when we convey that to the people of this country who 
provided the soldiers and the resources to fight it, that we 
have to maintain the same level and the same expense level, 
does it?
    General Jones. Right.
    Senator Sessions. You're providing us some ideas about how 
we can begin to draw down that expense and that troop-level 
commitment. Is that fair to say?
    General Jones. That's absolutely correct, sir.
    Senator Sessions. So, that would certainly be my vision and 
hope, that we could draw down our commitment, have more of the 
burden carried by the Iraqi people, and that we can end up with 
a stable, decent government that's an ally to the United 
States, and not a base for terrorist activities, and would not 
result in the kind of end that would embolden the enemy and 
would cause them to make a decision where would they attack 
next. If they're successful here, the next thing that they 
would do is to decide where next they're going to attack. I 
think we would be on the defensive.
    Mr. Chairman, thank you for the hearing.
    I would just note, I believe the press have previewed your 
report a bit more negative than I hear it today. I hear yours 
as a fundamental, wise evaluation that gives us a cause for 
belief that we can prevail here. Likewise, I think the spin on 
the GAO report was more negative than it deserved. But we 
certainly face difficult, difficult challenges. It's not an 
easy thing. This is a very difficult thing. But, given where we 
are, I think your report is very helpful.
    Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Corker, do you have any additional questions?
    Senator Corker. The gentleman said that we haven't delved 
into even the issue of corruption yet. Has there been much 
discussion of that as it relates to security today in this 
hearing?
    General Jones. Not specifically.
    Senator Corker. I'd like for you to expand a little bit on 
that and how that is affecting what's happening on the ground. 
I'd like to begin by asking if the oil that is coming out of 
the ground in Iraq--is it metered?
    Dr. Hamre. Sir, the estimate is that about 400,000 barrels 
of oil is pilfered every day.
    Senator Corker. 400,000 barrels is pilfered. Are there 
meters--which, again, is a basic elementary step--are there 
actually meters on those wells?
    Dr. Hamre. I don't know the answer to that.
    Admiral Johnson. I can't speak for the well heads, but I 
visited the offshore loading platforms, and the modern one, the 
new one that we have just poured a considerable amount of money 
in, is state-of-the-art. It's one of the top six, in terms of 
capacity, in the entire world. It does have modern-day metering 
capacity on it, with telemetry back to the Ministry of Oil in 
Baghdad, so they can see precisely how much is being shipped 
every day.
    Now, I might add that, when we were there, the U.S. Navy 
security folks that were resident on this platform told us, as 
a sidebar, that the Iraqi Southern Oil Company people, who are 
also resident on there, are urging the construction company, 
who has put in this telemetry and metering equipment as they 
finish up the project, to shut it off before they leave. So, 
that speaks to some element of corruption and what have you, as 
an example. But, right now, I can tell you that there's very 
good telemetry.
    Now, the northern rig does not have telemetry, and there's 
some conjecture of where that oil that gets shipped out of 
there--it's a very small amount compared to the southern 
facility--but that doesn't have telemetry.
    So, they don't have a good feel for exactly what's being 
shipped, except from the modern one, today, which they have 
very good----
    Senator Corker. The estimate of the number of barrels of 
oil that are being pilfered is what?
    Dr. Hamre. Between 200,000 and 400,000 a day. It's been 
steady at that rate.
    Senator Corker. Are those funds, that are obviously being 
generated by someone, being used to counter our efforts there?
    Or are they funds that are being used--I hate to say this--
to help our efforts there? What is happening with those 400,000 
barrels?
    Dr. Hamre. Sir, you see a combination--and, actually, 
General King should speak to this--but I think you'll see a 
combination of criminality and insurgency that gets blended 
unevenly. Some of this is just pure criminal activity, and some 
of it is definitely flowing into the hands, into the resources 
of insurgent and militia elements.
    Jim, why don't you come up here, speak to that? I think 
it's important.
    General King. Sir, I think we could just define, also, that 
an amount of this does lead itself into terrorism being 
financed, and to be used against the coalition forces. However, 
because of the criminal element being so tightly tied in with 
Shia-on-Shia or Sunni of various factions with it, it is hard 
for us to give an accurate assessment about the flow of funds, 
although we do know that the flow of funds that goes out of the 
country does enable forces to come back in.
    Senator Corker. It would seem to me that figuring out how 
much oil was coming out of the ground is like the border 
question a minute ago. Figuring out the amount of oil that was 
coming out of the ground, and where it was going, would be a 
more elementary solution than some of the more difficult issues 
of sectarian violence that we are dealing with that involve 
human behavior. Again, these things are mathematical and can be 
metered. Is there a reason that we've not employed methods to 
keep 400,000 barrels of oil, which is indicated to be the case, 
from going into the wrong hands or into hands that are not 
legally holding those oil reserves or oil?
    General King. I'm not capable of answering that statement 
fully, or accurately, but I would offer that, just as the way 
that the coalition forces have been now, it depends on where 
you have to use your forces. What would it take to be able to 
do that? I think that we would find that, in partial, with some 
of the oil and other things that are going out, that would be 
simultaneous with the border security, both going out through 
Turkey as well as through other areas.
    Senator Corker. These don't have to be army personnel. We 
have, I'm sure, people around the world in civilian activities 
that figure out how much oil is coming out of the ground and 
who's paying for it, right?
    Dr. Hamre. But, sir, the black marketing really started 
during the years of embargo on Saddam. That's how he raised 
$400 million a year to build palaces. There's this very 
elaborate, large black-market activity that's very mature in 
this country. So, a guy pulls up, he says, ``Okay, only write 
down 1,500 gallons in my tanker truck,'' and you put in 3,000, 
and he's taking the other 1,500 off into a diversion. This is 
very widespread. This is a big, heavy-duty black-market 
activity in this country.
    Senator Corker. Are you saying the reason that we're not 
intervening is that that would create other issues, other 
revolts for us to deal with, and this is just a common 
practice, and, to try to intervene creates other issues that we 
would have to deal with as a country?
    Dr. Hamre. Sir, I shouldn't comment on that. My sense is 
that we have had our hands full with a whole range of things, 
and this was a problem, but it wasn't as imminent and immediate 
as people shooting at us.
    Chairman Levin. Let me just conclude with a few clarifying 
questions. I hope this will be brief.
    On page 46 of your version, you've indicated, again, that, 
``The armed forces of Iraq are capable''--and that's present 
tense--``of assuming greater responsibility for the internal 
security of Iraq.'' I think each of us have noted that, and the 
importance of that conclusion. That seems to be one of your 
thrusts, is that we want them to take over greater 
responsibility, and that they are presently capable of assuming 
greater responsibility. Would you agree with that?
    General Jones. Correct.
    Chairman Levin. Okay. Now, on page 60 of our version, 62 of 
your version, there's a statement that, ``There is rising 
confidence that progress is being made at the rate that will 
enable Iraqi army tactical formations and units to gradually 
assume a greater leadership role in counterinsurgency 
operations.'' That's totally consistent with what you said on 
page 46.
    General Joulwan. In the next 12 to 18 months.
    Chairman Levin. That's the part that's confusing. Page 44 
is present tense, that they are presently capable of assuming 
greater responsibility. Am I correct that the reason the words 
``12 to 18 months'' are in there is because that was your 
mandate, that's what you were tasked to do?
    General Joulwan. Correct.
    Chairman Levin. ``Could this happen in the next 12 to 18 
months?'' and your answer is yes.
    General Joulwan. Yes.
    Chairman Levin. But you're not saying that that cannot, and 
should not, occur promptly, as soon as that capability is 
established. You're not saying you want to delay that.
    General Jones. We're not saying that, no, sir.
    Chairman Levin. Okay.
    On page 61 of the binder, ``Without continued training, 
mentoring, and key combat enablers from the coalition, it would 
be difficult for the Iraqi army to progress to a point where it 
can conduct effective, independent counterinsurgency and 
counterterrorism operations. Further, it is likely that hard-
won progress made to date would atrophy.''
    That is ``without continued training, key mentoring, and 
key combat enablers.'' Would the slight rephrasing also be true 
that ``with continued training, mentoring, and key combat 
enablers from the coalition, that the Iraqi army will be able 
to progress to a point where it can conduct effective 
independent counterinsurgency and counterterrorism operations, 
and that, under that circumstance, it is likely that hard-won 
progress to date could be sustained``? In other words--do you 
see what I'm saying?
    General Jones. Yes, sir.
    General Joulwan. Yes, I agree.
    Chairman Levin. Okay, you agree with that.
    General Jones. Yes, sir.
    Chairman Levin. General Jones, to you and your colleagues, 
again, this was a little bit of an unusual thing. The Senate's 
always unusual, but this is more unusual than usual, because of 
what we had to do, in and out, but you've handled it very, very 
well, and I think my colleagues have. Some of my colleagues who 
clearly were here to ask questions were aced out when somebody 
who had a prior preference suddenly appeared. I apologize to 
them, but I think we all understand it. We know you're old pros 
around here, you understand this, too, and we're not only 
appreciative of your effort here in this report, but also of 
your patience with the way in which this had to be handled, 
given the five votes that interrupted this proceeding.
    Thank you very much for your service, and we'll stand 
adjourned and hope you get lunch.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Evan Bayh

                               THE SURGE

    1. Senator Bayh. General Jones, in your view, how much of the 
military success the administration is reporting the surge has wrought 
is sustainable?
    General Jones. The surge is the combined effort of coalition and 
Iraqi security forces (ISF); the U.S. contribution to the surge was 
only fully realized in the summer of 2007. It is too early to fully 
assess the effects of the surge, but there are signs of encouraging 
tactical successes in the Baghdad region. Violence levels in Baghdad 
have decreased measurably during the period of the surge. The average 
number of sectarian killings in Baghdad has decreased, and the average 
number of daily enemy attacks has decreased as well. At the same time 
violence is still a fact of life in Iraq and in Baghdad in particular.
    The Commission found that the ``clear, hold, build'' strategy being 
implemented by the ISF as part of the surge and as part of the broader 
counterinsurgency campaign is heading in the right direction and shows 
real potential, but noted that neither the Iraqi armed forces or the 
police forces could execute these kinds of activities without coalition 
support.
    If the coalition continues to provide key enabling support and 
training to the ISF over the next few years, the Commission believes 
the ISF will be able to build on the military results of the surge and 
bring increased security to more areas in Iraq, which in turn could 
lead to a more durable security environment in that country.

    2. Senator Bayh. General Jones, how much of that success could be 
transferred to Iraqi forces?
    General Jones. As noted in the Commission report, the ISF can bring 
greater security to the provinces in the near-term, but neither the 
Iraqi armed forces nor the Iraqi police forces can provide security and 
stability without significant coalition assistance. The Iraqi armed 
forces are growing more able to combat Iraq's internal threats, and 
over time they will be able to take on more responsibility for daily 
combat operations. If the ISF continue to progress as they have during 
the last year, the Commission believes that the coalition could being 
adjusting its forces, realigning them and re-tasking them to more of a 
``strategic overwatch'' posture, beginning as soon as early 2008.

    3. Senator Bayh. General Jones, what timeline would that transfer 
take place?
    General Jones. See answer above.

                              SECTARIANISM

    4. Senator Bayh. General Jones, can sectarianism be rooted out of 
the security forces absent a broader political reconciliation between 
Iraqi sects?
    General Jones. The Commission emphasized in its written report and 
in its testimony before Congress that the most important step toward 
progress in Iraq is a political reconciliation process led by the 
Government of Iraq. While the Iraqi armed forces and police services 
have the potential to help reduce sectarian violence, these forces 
reflect the society from which they are drawn. Absent a political 
reconciliation process, it is unlikely that the ISF will be immune to 
sectarianism.

                                SUPPORT

    5. Senator Bayh. General Jones, what would happen to the Iraqi army 
and police if U.S. forces were not providing the backbone of logistic, 
transport, and equipment support?
    General Jones. In its report, the Commission concluded that the 
Iraqi armed forces are becoming increasingly effective and are capable 
of assuming greater responsibility for internal security. It also 
concluded that while the Iraqi police are improving, this progress is 
not occurring at a rate sufficient to meet their essential security 
responsibilities. In the near-term, neither the Iraqi armed forces nor 
the Iraqi police forces can operate independently or provide security 
over time without relying on coalition forces for combat support and 
combat service support.

    6. Senator Bayh. General Jones, how do coalition and American 
strategies differ in terms of providing combat support and combat 
service support assistance to the ISF?
    General Jones. During its trips to Iraq, the Commission did not 
observe significant differences among members of the coalition in terms 
of how forces provided combat support and combat service support 
assistance to the ISF.

    7. Senator Bayh. General Jones, is the United States in danger of 
providing too much of a crutch to the ISF in terms of logistical, 
communications, and transportation assistance?
    General Jones. In its written report, the Commission did note 
specifically that both the Iraqi armed forces and the Iraqi police 
forces need to develop functioning logistics and maintenance systems. 
The Commission observed that in some areas coalition experts may be 
pushing the Iraqis toward solutions that are more complex and elaborate 
than is necessary.

    8. Senator Bayh. General Jones, how can we help ensure that this 
doesn't happen?
    General Jones. Identifying the tipping point between assistance and 
dependency is a challenge, particularly when the presence or absence of 
coalition assistance can make or break ISF participation in actual 
operations. The Commission observed that in many instances, coalition 
forces are sensitive to the dangers of dependency and are working 
closely with ISF to help them become self-sufficient.
    For instance, when the Commission visited the Baghdad Police 
College, leaders of the school asked coalition representatives to 
reconsider their decision to terminate the coalition's contract for 
``life support'' services in November 2007, but coalition 
representatives held fast and reiterated the need for the Police 
College to become self-reliant. In the area of logistics, where 
development of functioning Iraqi systems is particularly important, the 
Commission recommends that the coalition work with ISF to develop an 
``Iraqi solution'' that gets the job done to an adequate level, even if 
that solution does not result in optimal efficiency and speed.

                          IRAQI SPECIAL FORCES

    9. Senator Bayh. General Jones, why have the Iraqi Special 
Operations Forces (ISOF) been so much more successful than other 
components of the ISF?
    General Jones. The ISOF have been more successful than other 
components of the ISF for several reasons. The determining factor in 
ISOF's success has been the ability of U.S. Army Special Forces since 
2003 to continuously exercise their specialty of training foreign 
counterparts, building trust through repeated tours, shared operations 
and hardship, and carefully selecting operations that build the 
capabilities and confidence of Iraqi units.
    Foreign internal defense and force development-force multiplication 
have for 50 years been an Army SOF mission set; and this mission set 
has been executed to the best of their ability in Iraq. The coalition, 
working and living closely with ISOF, has been able to ensure that ISOF 
is capable of missions and tasks other Iraqi forces are not--including 
logistics and maintenance. The ``student to teacher'' ratio allows the 
coalition to focus on a range of tasks that trainers involved with the 
regular Iraqi Army cannot. Also, members of the U.S. Army 5th Special 
Forces Group and 10th Special Forces Groups are back in Iraq on their 
fifth or even sixth tour, rotating in and out of country every 7 months 
and providing remarkable continuity in building long-term relationships 
with Iraqi counterparts. This has also allowed U.S. Army SOF to build 
up a strong junior officer and noncommissioned officer corps in ISOF, 
through continued mentoring and instruction. Resident U.S. Army Special 
Forces Teams assigned to ISOF live with, train, provide combat 
enablers, accompany on operations, and provide a continual U.S. Army 
Special Forces presence and commitment to the success of ISOF. This has 
created a Special Forces coalition effort with shared hardships, 
operational time, soldier and leader bonding, and exposure during 
combat operations.
    Because of the relatively small size of the ISOF--at present, a 
single brigade--its leaders are able to cull the recruit pool. In a 
smaller group, it is also easier to inculcate a shared culture of 
national service and pride. ISOF not only have strong capabilities, but 
they have confidence in their capabilities. U.S. Army SOF have put into 
place an operational paradigm of detailed planning, rehearsal, combat 
operations, after action discussions, and training again to address any 
shortfalls.

    10. Senator Bayh. General Jones, why are they so much farther ahead 
of the Army? Is it due to the small size of the force?
    General Jones. The response to question number nine explains why 
the ISOF are in many cases ahead of the Iraqi Army in their 
development. In brief, ISOF training began in 2003 and there has been 
remarkable continuity in this effort, including the rotation in and out 
of country of the same U.S. Army SOF teams. Unlike the military 
training teams working with the Iraqi Army, the U.S. trainers working 
with the ISOF consistently fight alongside Iraqis and share the same 
living spaces. Moreover, the ratio of U.S. trainers to Iraqi special 
operations soldiers is higher than it is for the military training 
teams working with the Iraqi Army because the overall size of the ISOF 
is much smaller than that of the Iraqi Army.

    11. Senator Bayh. General Jones, who is the force comprised of and 
what is their training? Who are their trainers?
    General Jones. The ISOF is the operational component of the Iraqi 
Counterterrorism Command. The ISOF is a brigade-size force composed of 
approximately 1,500 soldiers: a counterterrorism battalion, a commando 
battalion, a support battalion, and a special reconnaissance unit.
    The ISOF is trained by U.S. Army Special Operations Forces (5th and 
10th Groups), as outlined above in more detail. Their training is 
mostly in direct action missions against targets in semi-permissive and 
non-permissive urban environments. They train continuously in a ``shoot 
house''--an indoor tactical shooting range that mimics an urban housing 
complex and allows soldiers to practice forced entry and marksmanship, 
even under pitch-dark conditions (using night vision equipment).
    A key component in developing an Iraqi counterterrorism capability 
is the ongoing effort to double the number of soldiers in the ISOF. 
According to the U.S. Department of Defense, this expansion will 
include an additional commando battalion with forward-based commando 
companies in Basra, Mosul, and Al Asad.

    12. Senator Bayh. General Jones, how can lessons learned with ISF 
Special Forces translate into better successes for the Army and 
National Police?
    General Jones. Translating best practices and lessons learned from 
Special Forces to regular forces is a challenge even for U.S. forces. 
The best lesson to draw from the ISOF experience is that Iraqis can 
take the lead and operate at a high level of proficiency. ISOF are 
among the best special forces in the Middle East, and that is testament 
to what Iraqis can accomplish when provided the right training, 
equipping, and leadership development. Many of the best practices in 
training that the U.S. Special Forces have applied to ISOF have already 
been transferred in some measure to the regular forces through Military 
Training Teams and Police Training Teams.
                                 ______
                                 
    [Annex: The Report of the Independent Commission on the 
Security Forces of Iraq follows:]

[GRAPHIC] [TIFF OMITTED] T8601.001

[GRAPHIC] [TIFF OMITTED] T8601.002

[GRAPHIC] [TIFF OMITTED] T8601.003

[GRAPHIC] [TIFF OMITTED] T8601.004

[GRAPHIC] [TIFF OMITTED] T8601.005

[GRAPHIC] [TIFF OMITTED] T8601.006

[GRAPHIC] [TIFF OMITTED] T8601.007

[GRAPHIC] [TIFF OMITTED] T8601.008

[GRAPHIC] [TIFF OMITTED] T8601.009

[GRAPHIC] [TIFF OMITTED] T8601.010

[GRAPHIC] [TIFF OMITTED] T8601.011

[GRAPHIC] [TIFF OMITTED] T8601.012

[GRAPHIC] [TIFF OMITTED] T8601.013

[GRAPHIC] [TIFF OMITTED] T8601.014

[GRAPHIC] [TIFF OMITTED] T8601.015

[GRAPHIC] [TIFF OMITTED] T8601.016

[GRAPHIC] [TIFF OMITTED] T8601.017

[GRAPHIC] [TIFF OMITTED] T8601.018

[GRAPHIC] [TIFF OMITTED] T8601.019

[GRAPHIC] [TIFF OMITTED] T8601.020

[GRAPHIC] [TIFF OMITTED] T8601.021

[GRAPHIC] [TIFF OMITTED] T8601.022

[GRAPHIC] [TIFF OMITTED] T8601.023

[GRAPHIC] [TIFF OMITTED] T8601.024

[GRAPHIC] [TIFF OMITTED] T8601.025

[GRAPHIC] [TIFF OMITTED] T8601.026

[GRAPHIC] [TIFF OMITTED] T8601.027

[GRAPHIC] [TIFF OMITTED] T8601.028

[GRAPHIC] [TIFF OMITTED] T8601.029

[GRAPHIC] [TIFF OMITTED] T8601.030

[GRAPHIC] [TIFF OMITTED] T8601.031

[GRAPHIC] [TIFF OMITTED] T8601.032

[GRAPHIC] [TIFF OMITTED] T8601.033

[GRAPHIC] [TIFF OMITTED] T8601.034

[GRAPHIC] [TIFF OMITTED] T8601.035

[GRAPHIC] [TIFF OMITTED] T8601.036

[GRAPHIC] [TIFF OMITTED] T8601.037

[GRAPHIC] [TIFF OMITTED] T8601.038

[GRAPHIC] [TIFF OMITTED] T8601.039

[GRAPHIC] [TIFF OMITTED] T8601.040

[GRAPHIC] [TIFF OMITTED] T8601.041

[GRAPHIC] [TIFF OMITTED] T8601.042

[GRAPHIC] [TIFF OMITTED] T8601.043

[GRAPHIC] [TIFF OMITTED] T8601.044

[GRAPHIC] [TIFF OMITTED] T8601.045

[GRAPHIC] [TIFF OMITTED] T8601.046

[GRAPHIC] [TIFF OMITTED] T8601.047

[GRAPHIC] [TIFF OMITTED] T8601.048

[GRAPHIC] [TIFF OMITTED] T8601.049

[GRAPHIC] [TIFF OMITTED] T8601.050

[GRAPHIC] [TIFF OMITTED] T8601.051

[GRAPHIC] [TIFF OMITTED] T8601.052

[GRAPHIC] [TIFF OMITTED] T8601.053

[GRAPHIC] [TIFF OMITTED] T8601.054

[GRAPHIC] [TIFF OMITTED] T8601.055

[GRAPHIC] [TIFF OMITTED] T8601.056

[GRAPHIC] [TIFF OMITTED] T8601.057

[GRAPHIC] [TIFF OMITTED] T8601.058

[GRAPHIC] [TIFF OMITTED] T8601.059

[GRAPHIC] [TIFF OMITTED] T8601.060

[GRAPHIC] [TIFF OMITTED] T8601.061

[GRAPHIC] [TIFF OMITTED] T8601.062

[GRAPHIC] [TIFF OMITTED] T8601.063

[GRAPHIC] [TIFF OMITTED] T8601.064

[GRAPHIC] [TIFF OMITTED] T8601.065

[GRAPHIC] [TIFF OMITTED] T8601.066

[GRAPHIC] [TIFF OMITTED] T8601.067

[GRAPHIC] [TIFF OMITTED] T8601.068

[GRAPHIC] [TIFF OMITTED] T8601.069

[GRAPHIC] [TIFF OMITTED] T8601.070

[GRAPHIC] [TIFF OMITTED] T8601.071

[GRAPHIC] [TIFF OMITTED] T8601.072

[GRAPHIC] [TIFF OMITTED] T8601.073

[GRAPHIC] [TIFF OMITTED] T8601.074

[GRAPHIC] [TIFF OMITTED] T8601.075

[GRAPHIC] [TIFF OMITTED] T8601.076

[GRAPHIC] [TIFF OMITTED] T8601.077

[GRAPHIC] [TIFF OMITTED] T8601.078

[GRAPHIC] [TIFF OMITTED] T8601.079

[GRAPHIC] [TIFF OMITTED] T8601.080

[GRAPHIC] [TIFF OMITTED] T8601.081

[GRAPHIC] [TIFF OMITTED] T8601.082

[GRAPHIC] [TIFF OMITTED] T8601.083

[GRAPHIC] [TIFF OMITTED] T8601.084

[GRAPHIC] [TIFF OMITTED] T8601.085

[GRAPHIC] [TIFF OMITTED] T8601.086

[GRAPHIC] [TIFF OMITTED] T8601.087

[GRAPHIC] [TIFF OMITTED] T8601.088

[GRAPHIC] [TIFF OMITTED] T8601.089

[GRAPHIC] [TIFF OMITTED] T8601.090

[GRAPHIC] [TIFF OMITTED] T8601.091

[GRAPHIC] [TIFF OMITTED] T8601.092

[GRAPHIC] [TIFF OMITTED] T8601.093

[GRAPHIC] [TIFF OMITTED] T8601.094

[GRAPHIC] [TIFF OMITTED] T8601.095

[GRAPHIC] [TIFF OMITTED] T8601.096

[GRAPHIC] [TIFF OMITTED] T8601.097

[GRAPHIC] [TIFF OMITTED] T8601.098

[GRAPHIC] [TIFF OMITTED] T8601.099

[GRAPHIC] [TIFF OMITTED] T8601.100

[GRAPHIC] [TIFF OMITTED] T8601.101

[GRAPHIC] [TIFF OMITTED] T8601.102

[GRAPHIC] [TIFF OMITTED] T8601.103

[GRAPHIC] [TIFF OMITTED] T8601.104

[GRAPHIC] [TIFF OMITTED] T8601.105

[GRAPHIC] [TIFF OMITTED] T8601.106

[GRAPHIC] [TIFF OMITTED] T8601.107

[GRAPHIC] [TIFF OMITTED] T8601.108

[GRAPHIC] [TIFF OMITTED] T8601.109

[GRAPHIC] [TIFF OMITTED] T8601.110

[GRAPHIC] [TIFF OMITTED] T8601.111

[GRAPHIC] [TIFF OMITTED] T8601.112

[GRAPHIC] [TIFF OMITTED] T8601.113

[GRAPHIC] [TIFF OMITTED] T8601.114

[GRAPHIC] [TIFF OMITTED] T8601.115

[GRAPHIC] [TIFF OMITTED] T8601.116

[GRAPHIC] [TIFF OMITTED] T8601.117

[GRAPHIC] [TIFF OMITTED] T8601.118

[GRAPHIC] [TIFF OMITTED] T8601.119

[GRAPHIC] [TIFF OMITTED] T8601.120

[GRAPHIC] [TIFF OMITTED] T8601.121

[GRAPHIC] [TIFF OMITTED] T8601.122

[GRAPHIC] [TIFF OMITTED] T8601.123

[GRAPHIC] [TIFF OMITTED] T8601.124

[GRAPHIC] [TIFF OMITTED] T8601.125

[GRAPHIC] [TIFF OMITTED] T8601.126

[GRAPHIC] [TIFF OMITTED] T8601.127

[GRAPHIC] [TIFF OMITTED] T8601.128

[GRAPHIC] [TIFF OMITTED] T8601.129

[GRAPHIC] [TIFF OMITTED] T8601.130

[GRAPHIC] [TIFF OMITTED] T8601.131

[GRAPHIC] [TIFF OMITTED] T8601.132

[GRAPHIC] [TIFF OMITTED] T8601.133

[GRAPHIC] [TIFF OMITTED] T8601.134

[GRAPHIC] [TIFF OMITTED] T8601.135

[GRAPHIC] [TIFF OMITTED] T8601.136

[GRAPHIC] [TIFF OMITTED] T8601.137

[GRAPHIC] [TIFF OMITTED] T8601.138

[GRAPHIC] [TIFF OMITTED] T8601.139

[GRAPHIC] [TIFF OMITTED] T8601.140

[GRAPHIC] [TIFF OMITTED] T8601.141

[GRAPHIC] [TIFF OMITTED] T8601.142

[GRAPHIC] [TIFF OMITTED] T8601.143

[GRAPHIC] [TIFF OMITTED] T8601.144

[GRAPHIC] [TIFF OMITTED] T8601.145

[GRAPHIC] [TIFF OMITTED] T8601.146

[GRAPHIC] [TIFF OMITTED] T8601.147

[GRAPHIC] [TIFF OMITTED] T8601.148

[GRAPHIC] [TIFF OMITTED] T8601.149

[GRAPHIC] [TIFF OMITTED] T8601.150

[GRAPHIC] [TIFF OMITTED] T8601.151

[GRAPHIC] [TIFF OMITTED] T8601.152

[GRAPHIC] [TIFF OMITTED] T8601.153


    [Whereupon, at 1:45 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
